APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Entry in the Supreme Court of Ohio
(May 29, 2019) . . . . . . . . . . . . . . . App. 1
Appendix B Journal Entry and Opinion in the
Court of Appeals of Ohio, Eighth
Appellate District, County of Cuyahoga
(December 6, 2018) . . . . . . . . . . . . App. 2
Appendix C Journal Entry in the Court of Common
Pleas, Cuyahoga County, Ohio
(January 12, 2018) . . . . . . . . . . . App. 23
Appendix D Journal Entry in the Court of Common
Pleas, Cuyahoga County, Ohio
(October 19, 2017) . . . . . . . . . . . . App. 26
Appendix E Northwest Ohio Regional Sewer
District Board Decision
(September 12, 2017) . . . . . . . . . App. 28
Appendix F Reconsideration Entry in the Supreme
Court of Ohio
(August 6, 2019) . . . . . . . . . . . . . App. 34
Appendix G Journal Entry in the Court of
Appeals of Ohio, Eighth District,
County of Cuyahoga
(January 24, 2019) . . . . . . . . . . . App. 35
Appendix H O.R.C. § 2505.06 . . . . . . . . . . . . . App. 37
O.R.C. § 6119.06 . . . . . . . . . . . . App. 37

ii
Appendix I Appellant GPI Distributors, Inc.’s
Brief in Opposition to Defendant
Northeast Ohio Regional Sewer
District’s Motion to Dismiss in the
Cuyahoga County Court of Common
Pleas
(November 28, 2017) . . . . . . . . . . App. 47
Appendix J Appellant GPI Distributors, Inc.’s
Amended Motion for Determining
That No Supersedeas Bond Is
Necessary to Perfect Notice of Appeal
in the Cuyahoga County Court of
Common Pleas
(October 12, 2017) . . . . . . . . . . . . App. 69
Appendix K Mem ora ndum
in
Support of
Jurisdiction of Appellant GPI
Distributors, Inc. in the Supreme
Court of Ohio
(March 11, 2019) . . . . . . . . . . . . . App. 79

App. 1

APPENDIX A
THE SUPREME COURT OF OHIO
Case No. 2019-0352
[Filed May 29, 2019]
_______________________
GPI Distributors, Inc.
)
)
v.
)
)
Northeast Ohio Regional )
Sewer District
)
_______________________ )
ENTRY
Upon consideration of the jurisdictional memoranda
filed in this case, the court declines to accept
jurisdiction of the appeal pursuant to S.Ct.Prac.R.
7.08(B)(4).
(Cuyahoga County Court of Appeals; No. 106806)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice
The Official Case Announcement can be found at
http://www.supremecourt.ohio.gov/ROD/docs/

App. 2

APPENDIX B
COURT OF APPEALS OF OHIO
EIGHTH APPELLATE DISTRICT
COUNTY OF CUYAHOGA
No. 106806
[Filed December 6, 2018]
________________________________
GPI DISTRIBUTORS, INC.
)
)
PLAINTIFF-APPELLANT )
)
vs.
)
)
NORTHEAST OHIO REGIONAL )
SEWER DISTRICT
)
)
DEFENDANT-APPELLEE )
________________________________ )
JOURNAL ENTRY AND OPINION
JUDGMENT:
AFFIRMED
Civil Appeal from the
Cuyahoga County Court of Common Pleas
Case Nos. CV-17-883825 and CV-17-887300
BEFORE: Celebrezze, J., Kilbane, P.J., and Boyle, J.

App. 3
RELEASED AND JOURNALIZED: December 6,
2018
ATTORNEYS FOR APPELLANT
Deborah A. Coleman
Coleman Law, L.L.C.
16781 Chagrin Boulevard, #289
Cleveland, Ohio 44120
Andrew S. Pollis
Avidan Y. Cover
Milton A. Kramer Law Clinic - CWRU
11075 East Boulevard
Cleveland, Ohio 44106
Cory Novak
Legal Intern
Milton A. Kramer Law Clinic - CWRU
11075 East Boulevard
Cleveland, Ohio 44106
ATTORNEYS FOR APPELLEE
Eric Luckage
Chief Legal Officer
Amanda Lee Holzhauer
Assistant General Counsel
Northeast Ohio Regional Sewer District
3900 Euclid Avenue
Cleveland, Ohio 44115

App. 4
FRANK D. CELEBREZZE, JR., J.:
{¶1} Plaintiff-appellant, GPI Distributors, Inc.
(hereinafter “GPI”), appeals the trial court’s judgment
granting defendant-appellee, Northeast Ohio Regional
Sewer District’s (hereinafter “NEORSD”) motion to
dismiss GPI’s administrative appeal for failure to
comply with R.C. 2505.06. GPI argues that the trial
court erred by granting NEORSD’s motion to dismiss
because it was not required to file a supersedeas bond
in order to perfect the administrative appeal and that
even if a bond was required, the appeal could proceed
on questions of law. After a thorough review of the
record and law, this court affirms.
I. Factual and Procedural History
{¶2} The instant appeal arose from a dispute over
sewer bills charged to a residential property owned by
GPI between December 2014 and June 2015. GPI
initiated two separate but related civil actions in the
Cuyahoga County Court of Common Pleas.
{¶3} First, in Cuyahoga C.P. No. CV-17-883825
(hereinafter “declaratory judgment action”), GPI filed
a complaint on August 1, 2017, against the city of
Cleveland, the director of the city’s department of
public utilities, NEORSD, NEORSD’s chief executive
officer, Cuyahoga County’s fiscal officer, and Cuyahoga
County’s treasurer. In its complaint, GPI sought a
declaratory judgment and preliminary and permanent
injunctive relief. Specifically, GPI alleged that
(1) various policies and practices of the city of
Cleveland and NEORSD were unconstitutional,
violating GPI’s constitutional rights to due process,

App. 5
protection from takings for public purposes without
just compensation, and various civil rights, and (2) the
city violated various sections of the Cleveland Codified
Ordinances1 in the manner in which it installed and
maintained water meters and assessed water and
sewer bills to customers.
{¶4} Second, in Cuyahoga C.P. No. CV-17-887300
(hereinafter “administrative appeal”), GPI filed an
administrative appeal on October 12, 2017, challenging
NEORSD’s September 21, 2017 decision that approved
and adopted a hearing officer’s determination that
GPI’s sewer bills were accurate. On October 12, 2017,
GPI filed a motion to consolidate the declaratory
judgment action with the administrative appeal. The
trial court granted GPI’s motion, and the two cases
were consolidated on October 13, 2017.
{¶5} Along with its motion to consolidate, GPI filed
a motion to “determin[e] the necessity of a supersedeas
bond to perfect notice of appeal” in which it requested
an expedited ruling. On the same day, GPI filed an
amended motion to “determin[e] that no supersedeas
bond is necessary to perfect notice of appeal.” In the
amended motion, GPI argued that it was not required
to post the supersedeas bond required by R.C. 2505.06
in order to perfect its administrative appeal because
(1) NEORSD did not issue an order for the payment of
money, making the bond exemption set forth in R.C.
2505.12(B) applicable, and (2) NEORSD already
obtained a lien on GPI’s property for the outstanding

1

Cleveland Codified Ordinances 533.01(a)(1) and (c), 535.29, and
535.31.

App. 6
sewer charges, and thus, the interests that NEORSD
had at stake in the administrative appeal were already
secured. Alternatively, GPI requested that the trial
court set a nominal cash bond of $50.
{¶6} On October 18, 2017, NEORSD filed a brief in
opposition to GPI’s motion regarding the supersedeas
bond. Therein, NEORSD argued that GPI was required
to comply with R.C. 2505.06’s bond requirement in
order to perfect its notice of appeal.
{¶7} On October 19, 2017, the trial court denied
GPI’s motion for a determination that no supersedeas
bond was required. The trial court’s judgment entry
provides, in relevant part,
R.C. 2505.06 requires that an administrative
appeal upon questions of law and fact be
superseded by a bond. Because this case involves
an administrative appeal of a final order on a
sewer bill charge in the amount of $12,047.76,
R.C. 2505.12(B), which exempts the supersedeas
bond requirement, in inapplicable. [GPI’s]
additional argument that [NEORSD’s] interest
in the sewer bill charge has already been
secured with a lien is without merit because the
tax balance on the property at issue exceeds the
value of the property. * * * R.C. 2505.09 requires
that a supersedeas bond is executed by the
appellant to the appellee, with sufficient sureties
and in a sum that is not less than the
cumulative total for all claims covered by [t]he
final order. Therefore, [GPI] is required to post
a supersedeas bond in the amount of $12,047.76.

App. 7
{¶8} On November 1, 2017, NEORSD filed a motion
to dismiss the administrative appeal based on GPI’s
failure to comply with R.C. 2505.06’s bond
requirement. On November 28, 2017, GPI filed a brief
in opposition to the motion to dismiss. In opposing the
motion to dismiss, GPI argued, for the first time, that
(1) it was indigent and could not afford to post the bond
set by the trial court, and (2) R.C. 2505.06’s bond
requirement was unconstitutional because it violated
GPI’s constitutional rights to due process and equal
protection. NEORSD filed a reply brief in support of its
motion to dismiss on December 6, 2017.
{¶9} On January 12, 2018, the trial court granted
NEORSD’s motion to dismiss and dismissed GPI’s
administrative appeal. The trial court’s judgment entry
provides, in relevant part,
This court previously determined that a
supersedeas bond was required to invoke
jurisdiction to review the outcome of an
administrative appeal regarding NEORSD
placement of a lien against GPI property for
unpaid sewer charges. GPI filed the
administrative appeal citing issues of fact and
law.*** [GPI] failed to file the bond in a timely
manner or to substitute for bond pursuant to
R.C. 2505.11. NEORSD moved for dismissal for
GPI’s failure to perfect the administrative
appeal in compliance with R.C. 2505.06.
GPI opposes dismissal asserting that it could not
afford the posting of the bond, thereby depriving
it of a meaningful opportunity to be heard in
violation of its rights to due process and equal

App. 8
protection under Federal and State
Constitutions. Simply stated, GPI asserts that
the bond requirement of R.C. [2505.06] is
unconstitutional as an impediment to access
court review of the administrative appeal.
Legislative enactments are to be afforded a
strong presumption of constitutionality. Rocky
River v. State Empl. Relations Bd., 43 Ohio St.3d
1[, 539 N.E.2d 103] (1989).
The administrative appeal was conducted for a
determination of an amount due for the sewer
charges, thereby requiring the posting of the
supersedeas bond. As no bond was timely
posted, case is hereby dismissed.
{¶10} It is from this judgment that GPI filed the
instant appeal on February 7, 2018. GPI assigns one
error for review:
I. The trial court erred in granting [NEORSD’s]
motion to dismiss [GPI’s] administrative appeal
for failure to post a supersedeas bond under R.C.
2505.06.
II. Law and Analysis
A. Final Appealable Order
{¶11} As an initial matter, we must determine
whether the trial court’s January 12, 2018 judgment
granting NEORSD’s motion to dismiss GPI’s
administrative appeal is a final, appealable order.
{¶12} As noted above, GPI filed (1) a declaratory
judgment action in CV-17-883825, and (2) an

App. 9
administrative appeal in CV-17-887300. The trial
court’s January 12, 2018 judgment entry granting
NEORSD’s motion to dismiss was dispositive of GPI’s
administrative appeal. There was no disposition,
however, of GPI’s declaratory judgment action or the
causes of action GPI asserted in its August 1, 2017
complaint.
An order of a court is a final appealable order
only if the requirements of both Civ.R. 54(B), if
applicable, and R.C. 2505.02 are met. Chef
Italiano Corp. v. Kent State Univ., [44 Ohio
St.3d 86, 541 N.E.2d 64 (1989)], syllabus.
Moreover, an order which adjudicates one or
more but fewer than all the claims or the rights
and liabilities of fewer than all the parties must
meet the requirements of R.C. 2505.02 and
Civ.R. 54(B) in order to be final and appealable.
Noble v. Colwell, [44 Ohio St.3d 92, 540 N.E.2d
1381 (1989)], syllabus. An order fully
adjudicating a claim and accompanied by a
Civ.R. 54(B) determination and direction is final
and appealable despite the fact that a
counterclaim remains pending. Id. at 94.
R.C. 2505.02 in relevant part defines a final
order as “an order affecting a substantial right
in an action which in effect determines the
action and prevents a judgment.” Id. at 88.
Philpott v. Ernst & Whinney, 8th Dist. Cuyahoga
No. 61203, 1992 Ohio App. LEXIS 5930, 3-4 (Nov. 25,
1992).

App. 10
{¶13} Furthermore,
[t]he Ohio Supreme Court has held that where
multiple claims and/or parties exist, an order
adjudicating one or more but fewer than all the
claims or the rights and liabilities of fewer than
all of the parties must meet the requirements of
both R.C. 2505.02 and Civ.R. 54(B) in order to
constitute a final appealable order. Noble at 96.
The court explained that Civ.R. 54(B) “makes
mandatory the use of the language, ‘there is no
just reason for delay.’ Unless those words appear
where multiple claims and/or multiple parties
exist, the order is subject to modification and it
cannot be either final or appealable.” Id.,
quoting Jarrett v. Dayton Osteopathic Hosp.,
Inc., 20 Ohio St.3d 77, 486 N.E.2d 99 (1985), and
Whitaker-Merrell Co. v. Geupel Constr. Co., 29
Ohio St.2d 184, 280 N.E.2d 922 (1972), syllabus.
The court emphasized, however, that a trial
court cannot turn an otherwise nonfinal order
into a final appealable order by merely reciting
the language required under Civ.R. 54(B). Noble
at id.; Cirino v. Ohio Bur. of Workers’ Comp.,
2016-Ohio-8323, 75 N.E.3d 965, ¶ 124 (8th
Dist.).
Foster v. Foster, 8th Dist. Cuyahoga No. 106173, 2018Ohio-1961, ¶ 18.
{¶14} In the instant matter, as noted above, GPI
filed (1) a declaratory judgment action in CV-17883825, and (2) an administrative appeal in CV-17887300. GPI filed the instant appeal challenging the
trial court’s January 12, 2018 judgment entry granting

App. 11
NEORSD’s motion to dismiss and dismissing GPI’s
administrative appeal.
{¶15} The trial court’s January 12, 2018 judgment
entry is dispositive of and fully adjudicates GPI’s
administrative appeal. Furthermore, the trial court’s
judgment entry included an express determination of
“no just cause for delay,” satisfying the requirements
set forth in Civ.R. 54(B). Accordingly, we find that the
trial court’s order granting NEORSD’s motion to
dismiss constitutes a final, appealable order because it
fully adjudicates GPI’s administrative appeal and is
accompanied by a Civ.R. 54(B) determination and
direction.
{¶16} The trial court’s January 12, 2018 judgment
entry does not, however, dispose of or adjudicate GPI’s
declaratory judgment action or the causes of action GPI
asserted in its August 1, 2017 complaint. Because GPI’s
constitutional claims were not fully adjudicated, and
remain pending, they are outside the scope of the
instant appeal.
{¶17} Based on the foregoing analysis, we will only
address the merits of the trial court’s judgment
dismissing GPI’s administrative appeal because GPI’s
constitutional claims are not properly before this court.
B. Supersedeas Bond Requirement
{¶18} In its sole assignment of error, GPI argues
that the trial court erred by granting NEORSD’s
motion to dismiss based on GPI’s failure to post a
supersedeas bond as required by R.C. 2505.06.

App. 12
{¶19} R.C. 2505.06 provides that for administrative
appeals involving questions of law and fact,
no administrative-related appeal shall be
effective as an appeal upon questions of law and
fact until the final order appealed is superseded
by a bond in the amount and with the conditions
provided in sections 2505.09 and 2505.14 of the
Revised Code, and unless such bond is filed at
the time the notice of appeal is required to be
filed.
(Emphasis added.) Where an administrative appeal is
brought solely on questions of law, however, the
appellant is not required to file a bond. Ballado v.
Cleveland Hts., 76 Ohio App.3d 497, 498, 602 N.E.2d
394 (8th Dist.1991), citing Adrian, Inc. v. Parrott, 5th
Dist. Delaware No. 90-CA-31, 1990 Ohio App. LEXIS
5521, 3 (Nov. 30, 1990); see Am. Aggregates Corp. v.
Concord Twp., 5th Dist. Delaware Nos. 90-CA-32 and
90-CA-33, 1991 Ohio App. LEXIS 1655, 5 (Apr. 11,
1991) (“the filing of a supersedeas bond is not a
jurisdictional prerequisite to perfect [an] appeal under
R.C. [Chapter] 2505 involving questions of law only.”).
“Pursuant to R.C. 2505.06, it is the duty of appellants
to designate the nature of the administrative appeal[.]”
Bell v. Richmond Hts. Equalization Bd., 8th Dist.
Cuyahoga No. 66404, 1994 Ohio App. LEXIS 5159, 7
(Nov. 17, 1994).
{¶20} This court has recognized that “[i]t is well
established that when an administrative appeal
concerns questions of law and fact, a supersedeas bond
must be filed.” (Emphasis added.) Bell at 6, citing
Ballado, Nutter v. Concord Twp. Bd. of Zoning Appeals,

App. 13
11th Dist. Lake No. 92-L-118, 1993 Ohio App. LEXIS
3337 (June 30, 1993), and Landsittel v. Delaware, 5th
Dist. Delaware No. 89-CA-2, 1989 Ohio App. LEXIS
2736 (June 29, 1989). Furthermore,
when an administrative appeal concerns
questions of law and fact, a supersedeas bond,
unless otherwise provided by law, must be filed
within thirty days of the final administrative
order to perfect the notice of appeal. The
requirement of timely filing a supersedeas bond
with a notice of appeal is therefore a
jurisdictional requirement rather than one
procedural and/or technical in nature. See
Ballado, supra; Stevely v. Stoll, 57 Ohio App.
401, 14 N.E.2d 419 [3d Dist.1937]; Moore v.
Cleveland Civil Serv. Comm., 11 Ohio App.3d
273, 465 N.E.2d 482 [8th Dist.1983].
(Emphasis added.) Bell at 7.
{¶21} Appellate courts in the state of Ohio have
disagreed on the consequences of an appellant’s failure
to file the required bond upon an appeal of questions of
law and fact. This court held that an appellant’s failure
to post the supersedeas bond in a timely manner when
required to do so under R.C. 2505.06 mandates the
immediate dismissal of all aspects — both questions of
law and questions of fact — of an administrative
appeal. Ballado at 498. In Ballado, the appellant’s
notice of appeal, like the notice of appeal filed by GPI,
“dealt with questions of both law and fact, rendering
R.C. 2505.06 applicable[.]” Id. The Fifth and Tenth
Districts have also viewed an appellant’s failure to file
the required bond as being fatal to the entire appeal.

App. 14
See Dawes v. Murphy, 119 Ohio App. 201, 197 N.E.2d
818 (10th Dist.1963); Landsittel.
{¶22} Other appellate districts, however, have held
that when an appellant fails to post the requisite
supersedeas bond, the appeals may proceed, but only
on questions of law. Pickrel v. Hrobon, 106 Ohio App.
313, 151 N.E.2d 32 (10th Dist.1958); Nutter at 10-11
(the failure to post a supersedeas bond under R.C.
2505.06 is only fatal to the “fact” portion of the appeal);
see also Liberty Savs. Bank v. Kettering, 101 Ohio
App.3d 446, 449-450, 655 N.E.2d 1322 (2d Dist.1995)
(when an appellant files an administrative appeal
based on questions of law and fact, but fails to file a
supersedeas bond, the common pleas court should first
determine whether the appeal may continue solely on
questions of law; if the appeal can proceed on only
questions of law, the trial court should not dismiss the
case, but rather proceed with the appeal and limit its
review to the questions of law); Salida Invest. Group v.
Lake Cty. Util. Dept., 2015-Ohio-5066, 53 N.E.3d 857,
126 (11th Dist.) (remanding the matter to the trial
court based on the court’s failure to engage in the
analysis set forth in Nutter and failure to consider
appellant’s argument that the appeal was solely on a
question of law).
{¶23} In the instant matter, a review of the notice
of appeal GPI filed in the trial court indicates that the
administrative appeal was based on questions of law
and fact. GPI’s notice of appeal states, in relevant part,
“GPI appeals on issues of both law and fact. NEORSD’s
decision is unconstitutional, illegal, arbitrary,
capricious, unreasonable, and/or unsupported by a

App. 15
preponderance of substantial, reliable, and probative
evidence.” (Emphasis added.)
{¶24} A review of GPI’s motion to consolidate CV17-883825 and CV-17-887300 supports the conclusion
that the administrative appeal was not based solely on
questions of law, but rather on questions of law and
fact. In its motion to consolidate, GPI asserted, in
relevant part,
[t]he two cases arise from the same facts — the
clearly erroneous measurement of water
consumption by the Cleveland Division of Water
at a property owned by GPI, and the resulting
bills for water and sewer services issued for
approximately six months ending June 8, 2015.
***
In [CV-17-887300], GPI is the Appellant in an
administrative appeal from an NEORSD order
rejecting GPI’s dispute over the excessive sewer
bills.
The two cases have common questions of law
and fact, including whether NEORSD sewer
service charges that were billed to GPI for the
period December 5, 2014, through June 18, 2015,
are illegal, arbitrary, capricious, and
unreasonable, and have no relationship to sewer
services actually provided to GPI during that
time or to the record of water consumption upon
which the sewer charges were based.
(Emphasis added.)

App. 16
{¶25} It is evident that GPI’s administrative appeal
was brought on questions of law and fact, and that
GPI’s primary concern was a question of fact —
NEORSD’s determination that the sewer bills were
accurate — rather than a question of law. The
supersedeas bond requirement was clearly an issue of
concern for GPI, prompting GPI to file a motion and an
amended motion to determine the necessity of such
bond. See Bell, 8th Dist. Cuyahoga No. 66404, 1994
Ohio App. LEXIS 5159, at 10.
{¶26} In ruling on GPI’s motions to determine the
necessity of a supersedeas bond, the trial court, unlike
the lower court in Salida, made a determination that
the administrative appeal was brought on questions of
law and fact, and that the appeal could not proceed on
questions of law alone. The trial court further ordered
GPI to file a $12,047.76 bond, concluding that the bond
exemption set forth in R.C. 2505.12(B) was inapplicable
because the appeal was from a final order on a sewer
bill.
{¶27} As noted above, in its brief in opposition to
NEORSD’s motion to dismiss the administrative appeal
for failing to post the requisite bond under R.C.
2505.06, GPI argued that it was indigent and, as a
result, could not post the $12,047.76 bond set by the
trial court. R.C. 2505.11 provides a mechanism for
substituting the supersedeas bond requirement in
connection with an appeal. GPI could have pursued
this course of action in order to perfect its
administrative appeal and invoke the trial court’s
jurisdiction. However, GPI failed to do so.

App. 17
{¶28} Finally, we find no merit to GPI’s argument
that the failure to comply with R.C. 2505.06 is only
fatal to the questions of fact in the administrative
appeal, such that the appeal can proceed on questions
of law. GPI acknowledges this court’s holding in
Ballado, but argues that Ballado is “an older case that
engaged in only a cursory analysis of the issue.” GPI
contends that we should instead follow the “betterreasoned decisions” in Salida and Liberty Savs. Bank.
{¶29} After reviewing the record, we find no basis
upon which to depart from this court’s precedent.
Although GPI advanced this argument in both the trial
court proceedings and the instant appeal, GPI fails to
identify any question of law it was challenging in the
administrative appeal upon which the appeal can
proceed, much less a question of law that can be
decided without a factual appeal. See Salida, 2015Ohio-5066, 53 N.E.3d 857, at ¶ 25 (in the absence of
supersedeas bond, an administrative appeal can
proceed on questions of law, “so long as a factual appeal
is not necessary to decide the questions of law.”).
{¶30} For all of the foregoing reasons, we find that
the trial court properly granted NEORSD’s motion to
dismiss. Based on GPI’s failure to comply with R.C.
2505.06’s bond requirement, the trial court lacked
subject matter jurisdiction over the administrative
appeal. GPI’s sole assignment of error is overruled.
C. Due Process and Equal Protection
{¶31} As noted above, in opposing NEORSD’s
motion to dismiss the administrative appeal based on
GPI’s failure to comply with R.C. 2505.06, GPI argued

App. 18
— for the first time — that R.C. 2505.06’s bond
requirement violated its constitutional rights to due
process and equal protection.
{¶32} The trial court’s January 12, 2018 judgment
entry, from which GPI filed the instant appeal,
references GPI’s assertion that R.C. 2505.06’s bond
requirement violates the constitutional rights to due
process and equal protection. Furthermore, the
judgment entry acknowledges the general rule that all
legislative enactments enjoy a presumption of
constitutionality. The trial court did not, however,
address the merits of GPI’s constitutional challenge or
make a determination regarding the constitutionality
of R.C. 2505.06 or the statute’s bond requirement.
Rather, the court’s judgment entry reflects that it
granted NEORSD’s motion and dismissed the
administrative appeal on jurisdictional grounds based
on GPI’s failure to post the requisite bond.
{¶33} As an initial matter, we note that this court
generally does not address constitutional issues unless
it is absolutely necessary to do so. “‘Ohio law abounds
with precedent to the effect that constitutional issues
should not be decided unless absolutely necessary.”’
Ohioans for Fair Representation, Inc. v. Taft, 67 Ohio
St.3d 180, 183, 616 N.E.2d 905 (1993), quoting Hall
China Co. v. Pub. Util. Comm., 50 Ohio St.2d 206, 210,
364 N.E.2d 852 (1977).
{¶34} “Constitutional questions will not be decided
until the necessity for a decision arises on the record
before the court.” State ex rel. Herbert v. Ferguson, 142
Ohio St. 496, 52 N.E.2d 980 (1944), paragraph two of
the syllabus; see Interstate Motor Freight Sys. v.

App. 19
Bowers, 164 Ohio St. 122, 128 N.E.2d 97 (1955),
paragraph two of the syllabus (“[w]here a case can be
determined upon any other theory than that of the
constitutionality of a challenged statute, no
consideration will be given to the constitutional
question.”). Accord Fulton v. Bd. of Zoning Appeals, 8th
Dist. Cuyahoga No. 104561, 2017-0hio-971, ¶ 10.
Although the doctrine of constitutional
avoidance tends to apply most often in the
context of appeals, the doctrine applies equally
to the trial courts. See, e.g., Risner v. Ohio Dept.
of Natural Resources, 144 Ohio St.3d 278, 2015Ohio-3731, 42 N.E.3d 718, ¶ 29 (noting that trial
court properly avoided reaching constitutional
issue when it decided [the] matter based on
statutory-interpretation principles).
Fulton at ¶ id.
{¶35} In this case, the record reflects that the trial
court avoided reaching GPI’s constitutional challenge
to R.C. 2505.06, and disposed of the administrative
appeal based on statutory-interpretation principles —
concluding that R.C. 2505.06 applied, requiring GPI to
post a supersedeas bond, and that GPI’s failure to do so
was dispositive of the case. We further find that the
administrative appeal was not the appropriate vehicle
for determining the constitutionality of R.C. 2505.06,
particularly because GPI did not assert its
constitutional challenge to the statute in the
declaratory judgment action or its motions for
determining the necessity of a supersedeas bond.
Rather, GPI raised the issue for the first time in
opposing NEORSD’s motion to dismiss. Based on GPI’s

App. 20
belated constitutional challenge to R.C. 2505.06, the
constitutional issue is underdeveloped in the record
before this court. See 75 Pub. Square v. Cuyahoga Cty.
Bd. of Revision, 76 Ohio App.3d 340, 346, 601 N.E.2d
628 (8th Dist.1991) (a reviewing court “needs a record,
and the proponent of the constitutionality of the statute
needs notice and an opportunity to offer testimony
when a statute is challenged on the basis that it is
unconstitutional in its application”); Cleveland v.
Williams, 8th Dist. Cuyahoga No. 106454, 2018-Ohio2937, ¶ 19.
{¶36} Finally, we cannot say that R.C. 2505.06’s
bond requirement denied GPI access to the courts or
violated GPI’s right to a legal remedy. In Foster v.
Wells Fargo Fin. Ohio, Inc., 195 Ohio App.3d 497, 2011Ohio-4632, 960 N.E.2d 1022 (8th Dist.), this court
recognized that a person’s constitutional right to access
the courts is not unlimited. Id. at ¶ 19. Furthermore,
this court explained,
a statute of limitations does not deny access to
the courts, but limits that right to a reasonable
period of time depending on the type of claim as
prescribed by statute. Similarly, dismissal of
claims pursuant to procedural rules does not
violate one’s right to a legal remedy. Wells v.
Visual Sec. Concepts, Inc., [5th Dist. Richland
No. 04-CA-118, 2005-Ohio-4272], ¶ 27 (holding
that the trial court did not err to the prejudice of
the appellant’s right to legal remedy and to
access courts by granting summary judgment
because the plaintiffs claims were barred by the
statute of limitations).

App. 21
Foster was not denied his constitutional right to
a jury trial. He had access to the court until the
applicable statutes of limitations expired, but he
failed to bring his claims within the required
time.
Foster at ¶ 20-21.
{¶ 37} In this case, GPI had access to the common
pleas court by (1) filing an administrative appeal
within 30 days of the final administrative order, and
(2) posting the requisite supersedeas bond pursuant to
R.C. 2505.06, or substituting the supersedeas bond
pursuant to R.C. 2505.11. GPI did not post the
requisite bond and did not substitute the bond
requirement. Thus, GPI failed to perfect its notice of
appeal.
{¶ 38} R.C. 2505.06’s bond requirement did not deny
GPI access to the courts or violate GPI’s right to a legal
remedy. Had GPI complied with R.C. 2505.06’s bond
requirement, GPI would have had access to the
common pleas court to challenge NEORSD’s
administrative ruling. However, GPI failed to comply
with the procedural rules in order to perfect its
administrative appeal.
{¶39} For all of the foregoing reasons, we decline to
address GPI’s constitutional challenge to R.C. 2505.06.
III. Conclusion
{¶40} After thoroughly reviewing the record, we
affirm the trial court’s judgment. Because GPI filed an
administrative appeal on questions of law and fact, GPI
was required to post a supersedeas bond pursuant to

App. 22
R.C. 2505.06. GPI failed to post the requisite bond, and
as a result, the trial court lacked jurisdiction over the
administrative appeal. Accordingly, the trial court
properly granted NEORSD’s motion to dismiss.
{¶41} Judgment affirmed.
It is ordered that appellee recover from appellant
costs herein taxed.
The court finds there were reasonable grounds for
this appeal.
It is ordered that a special mandate issue out of this
court directing the common pleas court to carry this
judgment into execution.
A certified copy of this entry shall constitute the
mandate pursuant to Rule 27 of the Rules of Appellate
Procedure.
/s/ Frank D. Celebrezze Jr.
FRANK D. CELEBREZZE JR., JUDGE
MARY EILEEN KILBANE, P.J., and
MARY J. BOYLE, J., CONCUR

App. 23

APPENDIX C
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
Case No: CV-17-887300
Judge: NANCY A FUERST
[Filed January 12, 2018]
________________________________
GPI DISTRIBUTORS, INC.
)
Plaintiff
)
)
NORTHEAST OHIO REGIONAL )
SEWER DISTRICT
)
Defendant
)
________________________________ )
JOURNAL ENTRY
96 DISP.OTHER - FINAL
THIS MATTER IS BEFORE THE COURT ON
APPELLEE NORTHEAST OHIO REGIONAL SEWER
DISTRICT’S (“NEORSD”) 11/1/17 MOTION TO
DISMISS. BASED UPON REVIEW OF THE BRIEFS
SUBMITTED AND APPLICABLE LAW, APPELLEE’S
MOTION TO DISMISS IS GRANTED.
THIS COURT PREVIOUSLY DETERMINED THAT A
SUPERSEDEAS BOND WAS REQUIRED TO
INVOKE JURISDICTION TO REVIEW THE
OUTCOME OF AN ADMINISTRATIVE APPEAL

App. 24
REGARDING NEORSD PLACEMENT OF A LIEN
AGAINST GPI PROPERTY FOR UNPAID SEWER
CHARGES. GPI FILED THE ADMINISTRATIVE
APPEAL CITING ISSUES OF FACT AND LAW. THE
RECORD AND TRANSCRIPT OF THE APPEAL
WERE FILED WITH THE COURT AND ESTABLISH
THAT A HEARING OFFICER DETERMINED THE
AMOUNT OF THE SEWER LIEN. APPELLANT GPI
DISTRIBUTORS INC FAILED TO FILE THE BOND
IN A TIMELY MANNER OR TO SUBSTITUTE FOR
BOND PURSUANT TO R.C. 2505.11. NEORSD
MOVED FOR DISMISSAL FOR GPI’S FAILURE TO
PERFECT THE ADMINISTRATIVE APPEAL IN
COMPLIANCE WITH R.C. 2505.06.
GPI OPPOSES DISMISSAL ASSERTING THAT IT
COULD NOT AFFORD THE POSTING OF THE
BOND, THEREBY DEPRIVING IT OF A
MEANINGFUL OPPORTUNITY TO BE HEARD IN
VIOLATION OF ITS RIGHTS TO DUE PROCESS
AND EQUAL PROTECTION UNDER FEDERAL AND
STATE CONSTITUTIONS. SIMPLY STATED, GPI
ASSERTS THAT THE BOND REQUIREMENT OF
R.C. 25505.06 IS UNCONSTITUTIONAL AS AN
IMPEDIMENT TO ACCESS COURT REVIEW OF
THE ADMINISTRATIVE APPEAL. LEGISLATIVE
ENACTMENTS ARE TO BE AFFORDED A STRONG
PRESUMPTION OF CONSTITUTIONALITY. ROCKY
RIVER V. STATE EMPL. RELATIONS BD., 43 OHIO
ST. 3D 1 (1989).
THE ADMINISTRATIVE APPEAL WAS
CONDUCTED FOR A DETERMINATION OF AN
AMOUNT DUE FOR THE SEWER CHARGES,

App. 25
THEREBY REQUIRING THE POSTING OF THE
SUPERSEDEAS BOND. AS NO BOND WAS TIMELY
POSTED, CASE IS HEREBY DISMISSED.
SO ORDERED.
NO JUST CAUSE FOR DELAY.
/s/ N A Fuerst
Judge Signature 01/12/2018

App. 26

APPENDIX D
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
Case No: CV-17-887300
Judge: NANCY A FUERST
[Filed October 19, 2017]
________________________________
GPI DISTRIBUTORS, INC.
)
Plaintiff
)
)
NORTHEAST OHIO REGIONAL )
SEWER DISTRICT
)
Defendant
)
________________________________ )
JOURNAL ENTRY
GPI DISTRIBUTORS, INC.’S 10/12/2017 MOTION
FOR DETERMINING THE NECESSITY OF A
SUPERSEDEAS BOND TO PERFECT NOTICE OF
APPEAL IS DENIED.
R.C. 2505.06 REQUIRES THAT AN
ADMINISTRATIVE APPEAL UPON QUESTIONS OF
LAW AND FACT BE SUPERSEDED BY A BOND.
B E C A U SE THI S CAS E I N V O L V E S A N
ADMINISTRATIVE APPEAL OF A FINAL ORDER
ON A SEWER BILL CHARGE IN THE AMOUNT OF
$12,047.76, R.C. 2505.12(B), WHICH EXEMPTS THE

App. 27
SUPERSEDEAS
INAPPLICABLE.

BOND

REQUIREMENT,

IS

PLTF’S ADDITIONAL ARGUMENT THAT DEFT’S
INTEREST IN THE SEWER BILL CHARGE HAS
ALREADY BEEN SECURED WITH A LIEN IS
WITHOUT MERIT BECAUSE THE TAX BALANCE
ON THE PROPERTY AT ISSUE EXCEEDS THE
VALUE OF THE PROPERTY. SEE PLTF’S MOTION,
EXHIBITS B & C.
R.C. 2505.09 REQUIRES THAT A SUPERSEDEAS
BOND IS EXECUTED BY THE APPELLANT TO THE
APPELLEE, WITH SUFFICIENT SURETIES AND IN
A SUM THAT IS NOT LESS THAN THE
CUMULATIVE TOTAL FOR ALL CLAIMS COVERED
BY HE FINAL ORDER. THEREFORE, PLTF IS
REQUIRED TO POST A SUPERSEDEAS BOND IN
THE AMOUNT OF $12,047.76.
/s/ N A Fuerst
Judge Signature

10/19/2017

App. 28

APPENDIX E
Northeast Ohio
Regional Sewer District
DATE:

September 12, 2017

TO:

Kyle Dreyfuss-Wells
Chief Executive Officer

240-17

FROM: Frank G. Foley
Director of Operations and Maintenance
RE:

Sewer Use Code Matters

It is requested that a resolution be prepared for
Board consideration regarding:
Adopting the findings of the Hearing Officer
with regard to the sewer account of GPI
Distributors, Inc.; Sewer District Case No. 17006.
My recommendations, which are attached, are
prepared pursuant to Section 1.0303 of the Sewer Use
Code and the Rules of Procedure for Administrative
Determinations Made by the Northeast Ohio Regional
Sewer District.
APPROVED:
/s/Kyle Dreyfuss-Wells
Kyle Dreyfuss-Wells, Chief Executive Officer
Date 9/14/17

App. 29
/s/Eric Luckage
Eric Luckage, Chief Legal Officer
Date 09/14/17
/s/Kenneth J. Duplay
Kenneth J. Duplay, Chief Financial Officer
Date 09/14/17

Electronically Filed 11/28/2017 15:16 / BRIEF / CV 17
887300 / Confirmation Nbr. 1235824 / CLCCB

App. 30
Case Number 17-006
GPI Distributors, Inc.
5335 Dolloff Road
Cleveland, OH 44127

Hearing Date: July 12, 2017

Hearing: Administrative Appeal
Account Number: 2970550003
Request
On July 12, 2017, the NEORSD held an Administrative
Hearing with customer GPI Distributors, Inc.
regarding sewer service charges for the property
located at 5335 Dolloff Road in Cleveland, Ohio. The
customer was represented at the hearing by Ms Gloria
Strong, the owner of GPI Distributors, Inc. and her
attorney, Ms. Deborah Coleman. In its appeal, the
customer disputed sewer services charges that accrued
between December 5, 2014 and June 18, 2015.
Report
The customer indicated that she had requested an
administrative hearing because of the large sewer and
water service charges she had received for her property
at 5335 Dolloff Road. According to Ms. Strong, her
combined charges for water and sewer service were
more than $20,000. NEORSD charges of $12,047.76
were certified to the Cuyahoga County Fiscal Officer on
October 15, 2016. Ms. Strong indicated that she had
never had bills like those she was disputing. She
claimed there was no water consumption at the house
during the time period that the large bills occurred. Ms.
Strong also indicated that the house, which is a rental
property, was vacant at the time.

App. 31
The customer provided the following additional
information:
• The house at 5335 Dolloff Road is a single
family, three-bedroom residence.
• She thought someone would catch the “mistake”
in billing.
• A plumber checked the property and indicated
that there was no water service connection to
the property.
• She first notified the NEORSD of her concerns
with her bills in early 2015.
• She noticed that there was no water meter in
the house.
• She has dealt with break-ins between tenants.
The property was broken into in the July/August
timeframe of 2014. There was no vandalism
around the time that the charges being disputed
accrued.
The customer’s attorney provided the following
information:
• She claimed that the high bills occurred after
the installation of the AMR meter.
• A white paper titled, Factors for Water Billing
Accuracy.
• She noted that there had been an increase in
complaints about water billing, after AMR meter
installation.
• A newsnet5 article from February 15 and 16,
2017, indicating that incorrect programming of
water meters can lead to elevated bills.

App. 32
Michael McGing, NEORSD Manager of Billing Services
and Systems indicated the following:
• NEORSD compares sewer charges to water
charges. In this case, it confirmed that water
and sewer service charges were billed for the
same consumption.
• NEORSD believes the bills are calculated
accurately.
• No water usage occurred after the two periods
with the disputed charges.
• A letter was sent to the customer in January
2015 by the Cleveland Division of Water, which
indicated that the AMR meter was showing a
continuous increase in water usage.
• If the account is shown to have incorrect meter
readings and the Division of Water makes
adjustments to correct the customer’s billing,
NEORSD would make corresponding
adjustments.
Amanda Holzhauer, NEORSD Assistant General
Consul asked Ms. Strong if she had asked the Division
of Water or the NEORSD to inspect the water meter at
the house. Ms. Strong indicated that she had not. Ms.
Strong also indicated that she did not have any repairs
done to her water meter. Her first correspondence with
the NEORSD regarding the sewer charges being
contested was the letter from her attorney on April 5,
2017.
Ms. Coleman summarized by indicating that Ms.
Strong’s house at 5335 Dolloff is a small house that
was empty and locked at the time the high sewer bills
occurred. She believes it is inconceivable that 1.3

App. 33
million gallons of water could be used during the time
period when the high sewer bills occurred. Ms.
Coleman requested that NEORSD correct its bills to
Ms. Strong to reflect zero usage and that the NEORSD
withdraw its certification of her account to the
Cuyahoga County Fiscal Officer.
MR. McGing believes that NEORSD bills for Ms.
Strong’s property have been calculated accurately
based on the information available. He indicated that
NEORSD would have no objection to reducing charges
if it can be shown that the water meter at Ms. Strong’s
property was functioning incorrectly at the time the
elevated bills occurred.
Findings and Recommendations
The customer claims that her sewer bills for the time
period between December 2014 and June 2015 were
erroneous. She has presented no evidence to
substantiate this, however. Based on the information
available, the customer’s sewer bills appear to be
accurate. I recommend that the customer’s dispute of
its sewer bill be denied.
Respectfully submitted,
/s/Frank G. Foley
Frank G. Foley
7/21/17
Date
Electronically Filed 11/28/2017 15:16 / BRIEF / CV 17
887300 / Confirmation Nbr. 1235824 / CLCCB

App. 34

APPENDIX F
THE SUPREME COURT OF OHIO
Case No. 2019-0352
[Filed August 6, 2019]
_______________________
GPI Distributors, Inc.
)
)
v.
)
)
Northeast Ohio Regional )
Sewer District
)
_______________________ )
RECONSIDERATION ENTRY
Cuyahoga County
It is ordered by the court that the motion for
reconsideration in this case is denied.
(Cuyahoga County Court of Appeals; No. 106806)
/s/ Maureen O’Connor
Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at
http://www.supremecourt.ohio.gov/ROD/docs/

App. 35

APPENDIX G
COURT OF APPEALS OF OHIO,
EIGHTH DISTRICT
COUNTY OF CUYAHOGA
Nailah K. Byrd, Clerk of Courts
COA NO. 106806
[Filed on January 24, 2019]
________________________________
GPI DISTRIBUTORS, INC.
)
)
Appellant
)
)
-vs)
)
NORTHEAST OHIO REGIONAL )
SEWER DISTRICT
)
)
Appellee
)
________________________________ )
LOWER COURT NO.
CV-17-883825
CV-17-887300
COMMON PLEAS COURT
MOTION NO. 523873
Journal Entry

App. 36
Motion by appellant for reconsideration or, in the
alternative, to certify a conflict is denied.
Adm. Judge, Mary Eileen Kilbane, Concurs
Judge Mary J. Boyle, Concurs
Frank D. Celebrezze, Jr.
Judge

App. 37

APPENDIX H
O.R.C. § 2505.06
2505.06 Bond for administrative-related appeal
Except as provided in section 2505.12 of the Revised
Code, no administrative-related appeal shall be
effective as an appeal upon questions of law and fact
until the final order appealed is superseded by a bond
in the amount and with the conditions provided in
sections 2505.09 and 2505.14 of the Revised Code, and
unless such bond is filed at the time the notice of
appeal is required to be filed.
O.R.C. § 6119.06
6119.06 Rights, powers, and duties of district
Upon the declaration of the court of common pleas
organizing the regional water and sewer district
pursuant to section 6119.04 of the Revised Code and
upon the qualifying of its board of trustees and the
election of a president and a secretary, said district
shall exercise in its own name all the rights, powers,
and duties vested in it by Chapter 6119. of the Revised
Code, and, subject to such reservations, limitations and
qualifications as are set forth in this chapter, such
district may:
(A) Adopt bylaws for the regulation of its affairs, the
conduct of its business, and notice of its actions;
(B) Adopt an official seal;

App. 38
(C) Maintain a principal office and suboffices at such
places within the district as it designates;
(D) Sue and plead in its own name; be sued and
impleaded in its own name with respect to its contracts
or torts of its members, employees, or agents acting
within the scope of their employment, or to enforce its
obligations and covenants made under sections
6119.09, 6119.12, and 6119.14 of the Revised Code. Any
such actions against the district shall be brought in the
court of common pleas of the county in which the
principal office of the district is located, or in the court
of common pleas of the county in which the cause of
action arose, and all summonses, exceptions, and
notices of every kind shall be served on the district by
leaving a copy thereof at the principal office with the
person in charge thereof or with the secretary of the
district.
(E) Assume any liability or obligation of any person or
political subdivision, including a right on the part of
such district to indemnify and save harmless the other
contracting party from any loss, cost, or liability by
reason of the failure, refusal, neglect, or omission of
such district to perform any agreement assumed by it
or to act or discharge any such obligation;
(F) Make loans and grants to any person or political
subdivisions for the design, acquisition, or construction
of water resource projects by such person or political
subdivisions and adopt rules, regulations, and
procedures for making such loans and grants;
(G) Acquire, construct, reconstruct, enlarge, improve,
furnish, equip, maintain, repair, operate, lease or rent

App. 39
to or from, or contract for operation by or for, a political
subdivision or person, water resource projects within or
without the district;
(H) Make available the use or service of any water
resource project to one or more persons, one or more
political subdivisions, or any combination thereof;
(I) Levy and collect taxes and special assessments;
(J) Issue bonds and notes and refunding bonds and
notes as provided in Chapter 6119. of the Revised Code;
(K) Acquire by gift or purchase, hold, and dispose of
real and personal property in the exercise of its powers
and the performance of its duties under Chapter 6119.
of the Revised Code;
(L) Dispose of, by public or private sale, or lease any
real or personal property determined by the board of
trustees to be no longer necessary or needed for the
operation or purposes of the district;
(M) Acquire, in the name of the district, by purchase or
otherwise, on such terms and in such manner as it
considers proper, or by the exercise of the right of
condemnation in the manner provided by section
6119.11 of the Revised Code, such public or private
lands, including public parks, playgrounds, or
reservations, or parts thereof or rights therein,
rights-of-way, property, rights, easements, and
interests as it considers necessary for carrying out
Chapter 6119. of the Revised Code, but excluding the
acquisition by the exercise of the right of condemnation
of any waste water facility or water management
facility owned by any person or political subdivision,

App. 40
and compensation shall be paid for public or private
lands so taken;
(N) Adopt rules and regulations to protect augmented
flow by the district in waters of the state, to the extent
augmented by a water resource project, from depletion
so it will be available for beneficial use, to provide
standards for the withdrawal from waters of the state
of the augmented flow created by a water resource
project which is not returned to the waters of the state
so augmented, and to establish reasonable charges
therefor, if considered necessary by the district;
(O) Make and enter into all contracts and agreements
and execute all instruments necessary or incidental to
the performance of its duties and the execution of its
powers under Chapter 6119. of the Revised Code;
(P) Enter into contracts with any person or any
political subdivision to render services to such
contracting party for any service the district is
authorized to provide;
(Q) Enter into agreements for grants or the receipt and
repayment of loans from a board of township trustees
under section 505.705 of the Revised Code;
(R) Make provision for, contract for, or sell any of its
by-products or waste;
(S) Exercise the power of eminent domain in the
manner provided in Chapter 6119. of the Revised Code;
(T) Remove or change the location of any fence,
building, railroad, canal, or other structure or
improvement located in or out of the district, and in

App. 41
case it is not feasible or economical to move any such
building, structure, or improvement situated in or upon
lands required, and if the cost is determined by the
board to be less than that of purchase or condemnation,
to acquire land and construct, acquire, or install
therein or thereon buildings, structures, or
improvements similar in purpose, to be exchanged for
such buildings, structures, or improvements under
contracts entered into between the owner thereof and
the district;
(U) Receive and accept, from any federal or state
agency, grants for or in aid of the construction of any
water resource project, and receive and accept aid or
contributions from any source of money, property,
labor, or other things of value, to be held, used, and
applied only for the purposes for which such grants and
contributions are made;
(V) Purchase fire and extended coverage and liability
insurance for any water resource project and for the
principal office and suboffices of the district, insurance
protecting the district and its officers and employees
against liability for damage to property or injury to or
death of persons arising from its operations, and any
other insurance the district may agree to provide under
any resolution authorizing its water resource revenue
bonds or in any trust agreement securing the same;
(W)(1) Charge, alter, and collect rentals and other
charges for the use of services of any water resource
project as provided in section 6119.09 of the Revised
Code. Such district may refuse the services of any of its
projects if any of such rentals or other charges,
including penalties for late payment, are not paid by

App. 42
the user thereof, and, if such rentals or other charges
are not paid when due and upon certification of
nonpayment to the county auditor, such rentals or
other charges constitute a lien upon the property so
served, shall be placed by the auditor upon the real
property tax list and duplicate, and shall be collected in
the same manner as other taxes.
(2) A district shall not certify to the county auditor for
placement upon the tax list and duplicate and the
county auditor shall not place upon the tax list or
duplicate as a charge against the property the amount
of unpaid rentals or other charges including any
penalties for late payment as described in division
(W)(1) of this section if any of the following apply:
(a) The property served has been transferred or sold to
an electing subdivision as defined in section 5722.01 of
the Revised Code, regardless of whether the electing
subdivision is still the owner of the property, and the
unpaid rentals or other charges including penalties for
late payment have arisen from a period of time prior to
the transfer or confirmation of sale to the electing
subdivision.
(b) The property served has been sold to a purchaser at
sheriff’s sale or auditor’s sale, the unpaid rentals or
other charges including penalties for late payment have
arisen from a period of time prior to the confirmation of
sale, and the purchaser is not the owner of record of the
property immediately prior to the judgment of
foreclosure nor any of the following:
(i) A member of that owner’s immediate family;

App. 43
(ii) A person with a power of attorney appointed by that
owner who subsequently transfers the property to the
owner;
(iii) A sole proprietorship owned by that owner or a
member of that owner’s immediate family;
(iv) A partnership, trust, business trust, corporation, or
association of which the owner or a member of the
owner’s immediate family owns or controls directly or
indirectly more than fifty per cent.
(c) The property served has been forfeited to this state
for delinquent taxes, unless the owner of record
redeems the property.
(3) Upon valid written notice to the county auditor by
any owner possessing an ownership interest of record
of the property or an electing subdivision previously in
the chain of title to the property that the unpaid water
rents or charges together with any penalties have been
certified for placement or placed upon the tax list and
duplicate as a charge against the property in violation
of division (W)(2) of this section, the county auditor
shall promptly remove such charge from the tax
duplicate. This written notice to the county auditor
shall include all of the following:
(a) The parcel number of the property;
(b) The common address of the property;
(c) The date of the recording of the transfer of the
property to the owner or electing subdivision;
(d) The charge allegedly placed in violation of division
(W)(2) of this section.

App. 44
(4) When title to property is transferred to a county
land reutilization corporation, any lien placed on the
property under this division shall be extinguished, and
the corporation shall not be held liable for any rentals
or charges certified under this division with respect to
the property, if the rentals or charges were incurred
before the date of the transfer to the corporation and if
the corporation did not incur the rentals or charges,
regardless of whether the rentals or charges were
certified, or the lien was attached, before the date of
transfer. In such a case, the corporation and its
successors in title shall take title to the property free
and clear of any such lien and shall be immune from
liability in any collection action brought with respect to
such rentals or charges. If a lien placed on property is
extinguished as provided in this division, the district
shall retain the ability to recoup the rents and charges
incurred with respect to the property from any owner,
tenant, or other person liable to pay such rents and
charges before the property was transferred to the
corporation.
(X) Provide coverage for its employees under Chapters
145., 4123., and 4141. of the Revised Code;
(Y) Merge or combine with any other regional water
and sewer district into a single district, which shall be
one of the constituent districts, on terms so that the
surviving district shall be possessed of all rights,
capacity, privileges, powers, franchises, and authority
of the constituent districts and shall be subject to all
the liabilities, obligations, and duties of each of the
constituent districts and all rights of creditors of such
constituent districts shall be preserved unimpaired,

App. 45
limited in lien to the property affected by such liens
immediately prior to the time of the merger and all
debts, liabilities, and duties of the respective
constituent districts shall thereafter attach to the
surviving district and may be enforced against it, and
such other terms as are agreed upon, provided
two-thirds of the members of each of the boards consent
to such merger or combination. Such merger or
combination shall become legally effective unless, prior
to the ninetieth day following the later of the consents,
qualified electors residing in either district equal in
number to a majority of the qualified electors voting at
the last general election in such district file with the
secretary of the board of trustees of their regional
water and sewer district a petition of remonstrance
against such merger or combination. The secretary
shall cause the board of elections of the proper county
or counties to check the sufficiency of the signatures on
such petition.
(Z) Exercise the powers of the district without
obtaining the consent of any other political subdivision,
provided that all public or private property damaged or
destroyed in carrying out the powers of the district
shall be restored or repaired and placed in its original
condition as nearly as practicable or adequate
compensation made therefor by the district;
(AA) Require the owner of any premises located within
the district to connect the owner’s premises to a water
resource project determined to be accessible to such
premises and found to require such connection so as to
prevent or abate pollution or protect the health and
property of persons in the district. Such connection

App. 46
shall be made in accordance with procedures
established by the board of trustees of such district and
pursuant to such orders as the board may find
necessary to ensure and enforce compliance with such
procedures.
(BB) Do all acts necessary or proper to carry out the
powers granted in Chapter 6119. of the Revised Code.

App. 47

APPENDIX I
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
CASE NO: 17 CV 887300
JUDGE Nancy A. Fuerst
[Filed November 28, 2017]
_____________________________
GPI DISTRIBUTORS, INC.,
)
)
Appellant,
)
)
vs.
)
)
NORTHEASTERN OHIO
)
REGIONAL SEWER
)
DISTRICT,
)
)
Appellee.
)
_____________________________ )
APPELLANT GPI DISTRIBUTORS, INC.’S
BRIEF IN OPPOSITION TO DEFENDANT
NORTHEAST OHIO REGIONAL SEWER DISTRICT’S
MOTION TO DISMISS
INTRODUCTION
Appellant GPI Distributors (“GPI”) appeals the
decision of Appellee Northeastern Ohio Regional Sewer
District (“NEORSD”), which held a procedurally unfair

App. 48
and biased hearing and — unsurprisingly — rejected
GPI’s challenge to excessive sewer charges. NEORSD
now seeks dismissal of GPI’s appeal because GPI filed
no supersedeas bond under R.C. 2505.06. But GPI
could not afford to post a bond, and — as the United
States Supreme Court has held — depriving it of a
meaningful opportunity to be heard solely on that basis
would violate its right to due process and equal
protection under the United States and Ohio
Constitutions. Constitutional issues aside, the statute
did not require GPI to post a bond in this case. And
finally, even if the bond requirement were both
constitutional and required, the absence of a bond does
not affect GPI’s right to pursue this appeal on issues of
law.
BACKGROUND
NEORSD adopted Resolution 240-17 on September
21, 2017, rejecting GPI’s challenge to its sewer bills for
the real property located at 5335 Dolloff Road (“the
Property”) from December 2014 to June 2015. (9/12/17
Resolution and Recommendation, attached as Exhibit
A (the “Resolution”)). Those sewer bills were based on
the supposed consumption of 1.3 million gallons of
water at the Property even though the Property was
vacant and locked for the entire six-month period in
question. (See id.) NEORSD’s bills rely on the
measurement of water consumption by the Division of
Water of the City of Cleveland Department of Public
Utilities (“City Division of Water”).
The Resolution followed a July 2017 administrative
hearing conducted by Frank Foley, who presented

App. 49
himself as NEORSD’s “hearing examiner” (Transcript1
at 4) but whose actual title is NEORSD’s Director of
Operation and Maintenance.2 Mr. Foley is part of
NEORSD’s governing leadership and therefore has a
fiduciary obligation to further NEORSD’s mission,
which includes the goal to “[e]nhance District revenue”
and improve NEORSD’s financial status. (See
NEORSD’s 2016-2018 Strategic & Operational Action
Plan.3) But Mr. Foley did not disclose his affiliation
with NEORSD to GPI before or at the administrative
hearing. (Coleman Aff.,4 ¶ 7.) And not surprisingly, Mr.
Foley recommended that NEORSD deny GPI’s request
for relief from the excessive sewer bills. (Resolution.)
Also not surprisingly, NEORSD’s Board of Trustees
subsequently adopted the Resolution, which states, in
its entirety:
Adopting the findings of the Hearing Officer
with regard to the sewer account of GPI

1

“Transcript” refers to the transcript of the administrative hearing
at NEORSD, held on July 12, 2017, and filed with the Court by
NEORSD on November 14, 2017.
2

See NEORSD’s website, https://www.neorsd.org/about/trusteesand-directors.
3

NEORSD’s 2016-2018 Strategic & Operational Action Plan is
available online at https://www.neorsd.org/I_Library.php?
S O U R C E = l i b r ary /s t r a t e g i c _ p l a n _ 2 0 1 6 _ f o r _ e m p l o y e e s
_one_up_2_web.pdf&a=download_file&LIBRARY_RECORD_ID
=7193. A copy is also attached as Exhibit B.
4

“Coleman Aff.” refers to the Affidavit of Deborah A. Coleman,
dated November 27, 2017 (attached as Exhibit C).

App. 50
Distributors, Inc.; Sewer District Case No. 17006.
(Id.)
GPI filed a notice of appeal with NEORSD on
October 12, 2017, on questions of law and fact. The
Court rejected GPI’s request for an order relieving it of
the obligation to post a supersedeas bond under. (See
10-19-17 Journal Entry.)
GPI could not afford to post the supersedeas bond
(Strong Aff.,5 ¶ 4) and therefore did not do so. NEORSD
has now moved to dismiss GPI’s appeal for lack of
jurisdiction.
LAW AND ARGUMENT
I. THE COURT SHOULD DENY NEORSD’S
MOTION TO DISMISS BECAUSE THE BOND
REQUIREMENT OF R.C. 2505.06 IS
UNCONSTITUTIONAL.
The Court should deny NEORSD’s motion to
dismiss because the basis of NEORSD’s motion, the
bond requirement of R.C. 2505.06, violates GPI’s right
to due process and equal protection under the United
States and Ohio Constitutions.
A. The Bond Requirement of R.C. 2505.06
Violates Due Process.
R.C. 2505.06 provides that “no administrativerelated appeal shall be effective as an appeal upon
5

“Strong Aff.” refers to the Affidavit of Gloria Strong, dated
November 27, 2017 (attached as Exhibit D).

App. 51
questions of law and fact until the final order appealed
is superseded by a bond.” This bond requirement
violates the due-process clause of the United States
Constitution and the due-course-of-law clause of the
Ohio Constitution6 because it deprives indigent
litigants of their constitutional right of access to the
judicial system solely on the basis of their inability to
pay.
1. Due Process Requires a Meaningful
Opportunity to Be Heard.
Ohio’s Open Courts Amendment (Article I, Section
16 of the Ohio Constitution) requires access to the
courts “for every person with a right to a remedy for
injury to his person, property or reputation, with the
opportunity for such remedy being granted at a
meaningful time and in a meaningful manner.” Sedar
v. Knowlton Constr. Co., 49 Ohio St.3d 193, 199, 551
N.E.2d 938 (1990).7 That right applies to the “process
of appellate review,” because “litigants [have] a
property interest in the right to appeal.” Atkinson v.
Grunman Ohio Corp., 37 Ohio St.3d 80, 85, 523 N.E.2d
851 (1988). The “opportunity to be heard” is the most

6

Ohio equates the due-course-of-law clause in Article I, Section 16
of the Ohio Constitution with the due-process clause of the
Fourteenth Amendment to the United States Constitution. State
v. Aalim, 150 Ohio St.3d 489, 2017-Ohio-2956, 83 N.E.3d 883, ¶ 14.
For simplicity’s sake, GPI refers to “due process” throughout this
brief to refer to both.
7

Sedar was overruled on other grounds by Brennaman v. R.M.I.
Co., 70 Ohio St.3d 460, 1994-Ohio-322, 639 N.E.2d 425 (1994). But
the proposition for which GPI relies on Sedar remains good law.

App. 52
important of due-process guarantees. United Tel.
Credit Union, Inc. v. Roberts, 115 Ohio St.3d 464, 2007Ohio-5247, 875 N.E.2d 927, ¶ 13. The legislature may
place restrictions on court access, but such restrictions
should not limit “the party’s right to be heard.” See
Coburn v. Auto-Owners Ins. Co., 189 Ohio App.3d 322,
2010-Ohio-3327, 938 N.E.2d 400, 1 52 (10th Dist.).
The right to be heard is also established in federal
law as a constitutional right. See Fourteenth
Amendment to the U.S. Constitution, Section 1. The
United States Supreme Court has interpreted the right
to be heard as a duty upon the government to utilize a
fair process when the government threatens a person’s
property. Fuentes v. Shevin, 407 U.S. 67, 80, 92 S.Ct.
1983, 32 L.Ed.2d 556 (1972). Like the Ohio
Constitution, the U.S. Constitution requires the
opportunity to be heard to be meaningful. Mathews v.
Eldridge, 424 U.S. 319, 333, 96 S.Ct. 893, 47 L.Ed.2d
18 (1976). This Constitutional guarantee prevents the
legislature from empowering the government to be able
to deprive a person of a property interest without due
process. Arnett v. Kennedy, 416 U.S. 134, 94 S.Ct. 1633,
40 L.Ed.2d 15 (1974).
2. The Bond Requirement of R.C. 2505.06
Deprives Low-Income Litigants of a
Meaningful Opportunity to Be Heard.
The bond requirement of R.C. 2505.06 directly
violates GPI’s right to be heard. The NEORSD
administrative hearing was not a meaningful
opportunity to be heard because the hearing was
conducted by a biased decision maker and because the
NEORSD process did not permit GPI to present all

App. 53
available evidence to support its challenge. As a result,
this appeal is GPI’s only meaningful opportunity to be
heard, and the bond requirement stands as an
unconstitutional barrier.
a. The NEORSD Hearing Is Not
Meaningful Because the Hearing
Officer Is Not Impartial or Legally
Trained.
Due process requires that GPI receive an
administrative hearing before an impartial tribunal
and an unbiased judge. Staschak v. State Med. Bd. of
Ohio, 10th Dist. Franklin No. 03AP-799, 2004-Ohio4650, ¶ 40; Bracy v. Gramley, 520 U.S. 899, 905, 117
S.Ct. 1793, 1797, 138 L.Ed.2d 97 (1997). An individual
can challenge a hearing as violative of this aspect of
due process by showing that the decision maker held
personal bias towards the individual or that the
decision maker was not impartial. Staschak at ¶ 42.
Mr. Foley, the Director of Operations and
Maintenance at NEORSD who conducted the hearing
in this case, is a high-ranking NEORSD employee —
one of ten individuals identified as NEORSD’s
“leadership” on its website. But the U.S. Supreme
Court has long recognized that “ ‘no [person] is
permitted to try cases where he has an interest in the
outcome.’ ” Williams v. Pennsylvania, — U.S. —, 136
S.Ct. 1899, 1906, 195 L.Ed.2d 132 (2016), quoting In re
Murchison, 349 U.S. 133, 136, 75 S.Ct. 623, 99 L.Ed.
942 (1955).
Mr. Foley decided GPI’s challenge in NEORSD’s
favor, asserting that GPI had presented no evidence to

App. 54
substantiate the billing dispute. But GPI did offer
evidence. For example, its owner, Gloria J. Strong,
testified that the property had been vacant during the
time the excessive billing occurred. (Transcript at 16.)
GPI also offered a letter from the City Division of
Water to GPI indicating that a new “AMR” water meter
had been installed before January 2015, around the
start of the first billing period reflecting abnormally
high charges. (Exhibit 1 to Transcript; Transcript at
17.) GPI also offered a report by the City’s prime
contractor for the new meter installation entitled
“Factors in Water Billing Accuracy” that identified all
of the ways that errors in the selection, installation, or
use of AMR water meters can produce billing errors.
(Exhibit (unmarked) to Transcript; Transcript at 17.)
Mr. Foley’s failure even to acknowledge GPI’s evidence
reveals his predisposition to find in favor of the entity
to which he owes a duty of loyalty and a specific
obligation to help “[e]nhance * * * revenue.” (See
NEORSD’s 2016-2018 Strategic & Operational Action
Plan.) He was not in position to, and did not, afford
GPI the impartial hearing to which GPI was entitled.
There is also nothing in Mr. Foley’s background, at
least insofar as his biography on the NEORSD website
is concerned, to suggest that he has a law degree, much
less judicial experience. A search on the Ohio Supreme
Court’s website8 reveals no licensed attorney by that
name. But “[a]ccess to a legally-trained judge at some
stage of the adjudicatory process would appear to be an
especially compelling safeguard in our complex
contemporary legal system.” Lecates v. Justice of Peace
8

See https://www.supremecourt.ohio.gov/attorneysearch/#/search.

App. 55
Court No. 4 of State of Del., 637 F.2d 898, 911 (3d
Cir.1980). Without an administrative appeal, then, GPI
cannot receive the due process that comes only from a
proceeding managed by a judicial officer.
b. The NEORSD Hearing Process
Affords No Ability to Develop and
Present an Adequate Record.
“In almost every setting where important decisions
turn on questions of fact, due process requires an
opportunity to confront and cross-examine adverse
witnesses.” Goldberg v. Kelly, 397 U.S. 254, 269, 90
S.Ct. 1011, 1021, 25 L.Ed.2d 287 (1970); State v.
Patton, 8th Dist. No. 103737, 2016-Ohio-4867, 68
N.E.3d 273, ¶ 8. In this case, GPI did not receive the
opportunity to confront its opposing witnesses or
develop a complete factual record and therefore did not
receive due process.
At the administrative hearing, the NEORSD
witness relied on his belief that the City’s
measurements of water consumption were correct —
that is, on hearsay. (Transcript at 9-20.) GPI’s counsel
did not have the opportunity to develop and present
evidence that would have supported GPI’s challenge —
particularly evidence from the City Division of Water,
which measures the water usage that in turn drives
NEORSD’s sewer charges. (Id. at 29.) In theory, GPI
should have been able to present this type of evidence;
Rule 4.4 of NEORSD’s Rules of Procedure ostensibly
provides a mechanism for securing it.9 But NEORSD
9

Rule 4.4 of the Rules of Procedure for Administrative
Determinations Made by the Northeast Ohio Regional Sewer

App. 56
denied GPI’s pre-hearing request to secure those
relevant records. (Coleman Aff., ¶ 8 and Exhibit 2
thereto.) Moreover, no representative of the City
testified at the hearing, and NEORSD’s Rules of
Procedure provided GPI’s counsel no means to summon
a representative of the City or compel the production of
relevant documents. (Id. at ¶ 9.) If NEORSD had
required the City to produce the requested documents
or provided a means for GPI’s counsel to compel the
City to testify or produce documents, she might have
been able to submit evidence sufficient to show that
NEORSD’s sewer charges were based on inflated and
erroneous water usage data. (Id. at ¶ 10-11.)
3. An Administrative Appeal Would
Remedy These Procedural Defects.
Although GPI was not granted an impartial
tribunal or the opportunity to establish an adequate
record, this appeal would (and should) serve as the
corrective measure. An administrative appeal would
allow GPI to be heard by an impartial tribunal and

District (copy attached as Exhibit 1 to Coleman Aff.) provides:
Securing Witnesses and Documents; Special Investigations
- The production of books, papers and other documents,
files and records, may be required by the Board of Trustees
or Appeals Board, if deemed necessary, to present fully
and adequately any issue to be determined. Whenever an
investigation or other examination is necessary to fully
and adequately present any issue to be determined in a
case, the Board of Trustees or Appeals Board shall require
or authorize that same be made and the findings
submitted into evidence.

App. 57
afford GPI the ability to conduct discovery and to call
and confront witnesses.
Indeed, Ohio statutory law, R.C. 2506.03(B),
explicitly allows the parties to present new evidence
and testimony when, as here, the transcript of the
administrative hearing reflects an inadequate
procedure. A hearing is defective when the appellant is
not able to present evidence due to a lack of subpoena
power of the administration or if the appellant is
unable to cross-examine adverse witnesses. R.C.
2506.03(A)(2)(b), (A)(2)(c), and (A)(4). These
deficiencies are apparent in this matter, so GPI has the
statutory right to supplement the original transcript
with additional evidence in this appeal. Confining that
right to individuals who can afford to pay the requisite
bond conflicts with the due-process protections that the
General Assembly saw fit to incorporate into the
statutory appeal process.
4. Other Jurisdictions Have Recognized
that Similar Statutory Bond
Requirements Interfered with Due
Process.
While GPI is aware of no Ohio court considering the
due-process issue that GPI raises here, the courts of
other states have addressed the issue and held that a
statute requiring a bond is unconstitutional when “it
deprives the plaintiff of due process and * * * open
access to the courts.” See Detraz v. Fontana, 416 So.2d
1291, 1296 (La.1982). A Michigan court of appeals has
held that a bond requirement deprived a claimant of a
property interest without being given an opportunity to
be heard, specifically because the claimant was unable

App. 58
to afford the required bond. In re Forfeiture of 2000
GMC Denali & Contents, 316 Mich. App. 562, 579-80,
892 N.W.2d 388 (2016). The Florida Supreme Court
has also held that a statutory bond requirement
violates due process because the requirement
arbitrarily cuts off an indigent litigant’s right to be
heard. Psych. Assocs. v. Siegel, 610 So.2d 419, 426
(Fla.1992).
Because GPI will have no meaningful hearing on its
legitimate challenge to the excessive NEORSD sewer
charges in the absence of this appeal, the Court should
find that the bond requirement of R.C. 2505.06 violates
due process to the extent it conditions this Court’s
appellate jurisdiction on the posting of that bond, and
it should therefore deny NEORSD’s motion to dismiss.
B. The Bond Requirement of R.C. 2505.06
Violates Equal Protection.
The bond requirement imposed by R.C. 2505.06 also
violates the equal-protection clauses of the United
States and Ohio Constitutions because it draws
arbitrary lines between litigants based on economic
status without rational basis and based on the type of
appeal. See Fourteenth Amendment to the U.S.
Constitution, Section 1; Ohio Constitution, Article I,
Section 2.
A statute violates equal protection if it
discriminates against an individual because of indigent
status. Strattman v. Studt, 20 Ohio St.2d 95, 101-102,
253 N.E.2d 749 (1969). The United States Supreme
Court has held that a statutory bond requirement as a
predicate to appeal violates equal protection; “[w]hen

App. 59
an appeal is afforded, * * * it cannot be granted to some
litigants and capriciously or arbitrarily denied to others
without violating the Equal Protection Clause.” Lindsey
v. Normet, 405 U.S. 56, 77, 92 S.Ct. 862, 31 L.Ed.2d 36
(1972); see also Elk Horn Coal Corp. v. Cheyenne
Resources, Inc., 163 S.W.3d 408, 421 (Ky.2005) (holding
that a statute requiring certain appellants to pay an
added penalty if Kentucky Supreme Court denied
discretionary review violated the equal-protection
clauses of both the Kentucky and United States
Constitutions); Murphy v. Commr. of Dept. of Indus.
Accidents, 415 Mass. 218, 233, 612 N.E.2d 1149 (1993)
(holding that a filing fee for represented parties — but
not pro se parties — to challenge an administrative
judge’s denial of worker-compensation benefits violated
both the Massachusetts and United States
Constitutions). The Lindsey Court recognized that a
bond requirement can inflict particular “discrimination
against the poor” because for them, “as a practical
matter, appeal is foreclosed, no matter how meritorious
their case may be.” Id. at 79.
In Lindsey, the Court invalidated an Oregon statute
that required tenants who wished to appeal an eviction
to post a bond equivalent to “twice the rental value of
the premises.” Id. at 75-76. While the statute in
Lindsey required a double bond, the size of the bond
was not the issue that drove the Court to invalidate the
statute. Instead, the Court struck down the bond
requirement because it discriminated unfairly against
the poor in actions for forcible entry and detainer. The
Court in particular noted the distinction between the
bond requirement that tenants had to satisfy simply in
order to appeal and an Oregon statute that conditioned

App. 60
a “stay of execution” upon the posting of a bond. See id.
at 75. In essence, the Court recognized an important
difference between a stay bond and an appeal bond;
the former is a reasonable accommodation to a
judgment winner as consideration for foregoing the
right of immediate execution, but the latter is an
unreasonable and unconstitutional limitation on the
very right of access to appellate review.
Indeed, the Third Circuit explicitly recognized this
distinction in Lecates. The court in Lecates held that a
state “cannot erect an absolute requirement, such as a
surety bond, that serves to deny a defendant access to
these constitutional protections solely because he is
indigent.” 637 F.2d at 911. But the court recognized the
state’s legitimate interest in protecting a judgment; “to
the extent the state wishes to protect a plaintiff’s
judgment, it can separate the right of appeal from the
bond requirement by imposing a bond only when the
defendant desires a stay of execution pending appeal.”
Id. at 911.
In this case, Ohio law provides judgment winners
with protection by conditioning the right to a stay of
execution pending appeal on the posting of an adequate
supersedeas bond, just as the Lecates court held was
proper. See R.C. 2505.09; Civ.R. 62(B). But R.C.
2505.06 also imposes a different kind of bond — one
that locks the courthouse doors entirely to anyone who
cannot afford to post it, just as the Court in Lindsey
and the Third Circuit in Lecates held was
unconstitutional. This bond requirement works a
particular injustice on those appellants like GPI that
cannot afford it, just as Lindsey and its progeny forbid.

App. 61
And it imposes that requirement only on
administrative appeals, not on appeals that emanate
from trial-court proceedings, an arbitrary distinction
that Lindsey and its progeny also forbid. The Court
should therefore find that the bond requirement of R.C.
2505.06 unconstitutionally inhibits GPI’s right to equal
protection under the United States and Ohio
Constitutions and, for that reason, GPI need not have
posted a bond to secure this Court’s appellate
jurisdiction, and the Court should deny NEORSD’s
motion.
II. THE COURT SHOULD DENY NEORSD’S
MOTION TO DISMISS BECAUSE R.C. 2505.06
DID NOT REQUIRE GPI TO POST A BOND.
The Court should hold that GPI is not required to
post a supersedeas bond at all for two independent
reasons: (A) this appeal falls within the bond exception
codified at R.C. 2505.12(B); and (B) NEORSD already
has a lien on the Property and therefore needs no
further protection.10
R.C. 2505.12(B) provides that an appellant is not
required to post a supersedeas bond in connection with
“[a]n administrative-related appeal of a final order that
is not for the payment of money.” The Eighth District
has held that “a supersedeas bond under R.C. 2505.06
‘relates to a judgment rendered by a trial court for
money damages.’” Wenneman v. Cleveland Bd. of
Zoning Appeals, 8th Dist. Cuyahoga No. 62390, 1992
10

GPI recognizes that the Court has already rejected GPI’s
arguments as set forth in this section of its brief. GPI reasserts
these arguments in order to preserve them for appellate review.

App. 62
WL 25311, *2 (Feb. 13, 1992), quoting Mahoney v.
Berea, 33 Ohio App.3d 94, 96, 514 N.E.2d 889 (8th
Dist.1986).
In this case, there is no NEORSD order requiring
GPI to pay money. There is likewise no trial-court
judgment against GPI for money damages. As a result,
R.C. 2505.12(B) governs, and no supersedeas bond is
required to perfect GPI’s appeal under R.C. 2505.06.
In addition, NEORSD has already secured the only
interest that is at stake by obtaining a lien on the
Property. The Property is valued at $16,000 (see
Property Valuation, attached as Exhibit D), in excess
of the challenged sewer bills, which amount to
$12,047.76. (See Resolution.) Even accounting for
interest, the lien is more than sufficient to secure the
only interest that NEORSD has at stake related to this
proceeding.11
III.

THE COURT SHOULD DENY NEORSD’S
MOTION TO DISMISS BECAUSE GPI’S
APPEAL ON QUESTIONS OF LAW DOES
NOT REQUIRE A BOND.

If the Court finds that the bond requirement of R.C.
2505.06 is constitutional and that GPI was required to

11

Interest rates are set forth in R.C. 1343.03(A) and R.C. 5703.47.
For the years in question, the interest rates have been three
percent, or $361.43 per year, except for 2017, when they went up
to four percent, or $481.91. See http://www.tax.ohio.gov/
ohio_individual/individual/interest_rates.aspx. The property value
is sufficiently in excess of the disputed sewer bills and several
years of continued interest accrual to justify a finding that no
supersedeas bond is necessary.

App. 63
comply with it, it should still deny NEORSD’s motion,
because GPI’s appeal may still go forward on issues of
law.
The statute by its own terms applies only to “an
appeal on questions of law and fact.” Id. And the
Eleventh District has held that “when the lack of a
supersedeas bond deprives the common pleas court of
the authority to go forward on questions of both law
and fact, the appeal proceeds on questions of law
alone if the nature of the questions of law are such
that they can be decided without a fact appeal.”
(Emphasis added.) Salida Invest. Group v. Lake Cty.
Util. Dept., 11th Dist. Lake No. 2015-L-004, 2015-Ohio5066, 53 N.E.3d 857, 860, ¶ 24. The Second District has
come to a similar conclusion. See Liberty Sav. Bank v.
Kettering, 101 Ohio App.3d 446, 449, 655 N.E.2d 1322
(2d Dist.1995).
The Eighth District reached a contrary result in
Ballado v. Cleveland Heights, 76 Ohio App.3d 497, 499,
602 N.E.2d 394 (8th Dist.1991). But Ballado is an older
case that engaged in only a cursory analysis of the
issue. The better-reasoned decisions of the Eleventh
and Second Districts should guide the Court’s decision
in this case.
CONCLUSION
For the reasons stated herein, GPI respectfully
requests that the Court deny NEORSD’s motion to
dismiss.

App. 64
Respectfully submitted,
/s/ Deborah A. Coleman
Deborah A. Coleman (0017908)
Attorney at Law
COLEMAN LAW LLC
16781 Chagrin Blvd. #289
Cleveland, OH 44120
Telephone: (216) 991-4510
Facsimile: (877) 298-8449
Email: dac@dacolemanlaw.com
/s/James Bedell
JAMES BEDELL
Legal Intern
/s/Brittany Chojnowski
BRITTANY CHOJNOWSKI
Legal Intern
/s/Robert Daniell
ROBERT DANIELL
Legal Intern
/s/Stephen Darnell
STEPHEN DARNELL
Legal Intern
/s/Mariah Dick
MARIAH DICK
Legal Intern
/s/Jonathan Engelke
JONATHAN ENGELKE
Legal Intern

App. 65
/s/Rachel Hazelet
RACHEL HAZELET
Legal Intern
/s/Joseph Hemphill
JOSEPH HEMPHILL
Legal Intern
/s/Julie Kuhn
JULIE KUHN
Legal Intern
/s/James Manly
jAMES MANLY
Legal Intern
/s/Daniel Wolfe
DANIEL WOLFE
Legal Intern
/s/Yanhuan Yang
YANHUAN YANG
Legal Intern
/s/ Andrew Pollis
ANDREW S. POLLIS (0046392)
Attorney at Law
THE MILTON A. KRAMER LAW
CLINIC CENTER
C ASE W ESTERN R ESERVE
UNIVERSITY
SCHOOL OF LAW
11075 East Boulevard
Cleveland, Ohio 44106
Telephone: (216) 368-2766

App. 66
Facsimile: (216) 368-5137
Email: andrew.pollis@case.edu
Attorneys and Legal Interns for
Plaintiff GPI Distributors
DATED: November 28, 2017
CV-3792-PLDG-171128-Brief
NEORSD’s Motion to Dismiss.

in

Opposition

to

Electronically Filed 11/28/2017 15:16 / BRIEF / CV 17
887300 / Confirmation Nbr. 1235824 / CLCCB
***
[Proof of Service Omitted in the Printing
of this Appendix]

App. 67
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
Case No: CV 887300
Judge Nancy A. Fuerst
[Filed November 28, 2017]
_____________________________
GPI DISTRIBUTORS, INC.,
)
)
Appellant,
)
)
vs.
)
)
NORTHEASTERN OHIO
)
REGIONAL SEWER
)
DISTRICT,
)
)
Appellee.
)
_____________________________ )
AFFIDAVIT OF GLORIA J. STRONG
STATE OF OHIO

)
)ss:
COUNTY OF CUYAHOGA )
Gloria J. Strong, being duly sworn, deposes and
states that the following facts are true to the best of
her knowledge and belief.
1. I am the sole owner of GPI Distributors, Inc.
(“GPI”), an Ohio corporation, which is the Plaintiff in
this case.

App. 68
2. GPI owns the premises located at 5335 Dolloff
Road, Cleveland, Ohio 44127 (PPN 131-22-010) (the
“Property”).
3. This case is an appeal from an adverse decision
by NEORSD with respect to bills totaling $12,040.86
for sewer services allegedly provided the Property
during approximately six months ending June 8, 2015,
a period during which the Property was locked, secured
and vacant.
4. GPI cannot afford to post a supersedeas bond in
the amount of $12,040.86 or $12,047.76 as required by
this court.
5. GPI’s expenses for its properties have exceeded
rental income for many years, even without taking into
account the sewer bills described above and the related
water bills. GPI has had no other source of income for
many years.
6. Further affiant sayeth not.
/s/Gloria J. Strong
Gloria J. Strong
Sworn to before me and subscribed in my presence
this 27 day of November, 2017.
/s/Deborah A. Coleman
Notary Public
CV-3792-171127-PLDG-171128-Affidavit
Strong

of

Gloria

Electronically Filed 11/28/2017 15:16 / BRIEF / CV 17
887300 / Confirmation Nbr. 1235824 / CLCCB

App. 69

APPENDIX J
IN THE COURT OF COMMON PLEAS
CUYAHOGA COUNTY, OHIO
CASE NO: CV 17 887300
JUDGE NANCY MARGARET RUSSO
[Filed October 12, 2017]
_____________________________
GPI DISTRIBUTORS, INC.,
)
)
Appellant, )
)
vs.
)
)
NORTHEASTERN OHIO
)
REGIONAL SEWER
)
DISTRICT,
)
)
Appellee.
)
_____________________________ )
APPELLANT GPI DISTRIBUTORS, INC.’S
AMENDED MOTION FOR DETERMINING
THAT NO SUPERSEDEAS BOND IS
NECESSARY TO PERFECT
NOTICE OF APPEAL
EXPEDITED RULING REQUESTED
Plaintiff GPI Distributors, Inc. (“GPI”) hereby
moves the Court under App.R. 7(B) for an expedited

App. 70
determination and a ruling issued by October 19, 2017,
that a supersedeas bond is not required in order to
perfect its administrative-related appeal in accordance
with R.C. 2505.06. A supersedeas bond is not required
because 1) no judgment for money damages was
entered by the administrative agency; and 2) the
agency has already obtained a lien to secure the only
interest it has at stake in this proceeding.
Alternatively, GPI moves for an order setting a
nominal cash-deposit amount of $50 in lieu of a
supersedeas bond.
BACKGROUND
Appellee Northeast Ohio Regional Sewer District
(“NEORSD”) adopted Resolution 240-17 on September
21, 2017, rejecting GPI’s challenge to its sewer bills for
the real property located at 5335 Doloff Road (“the
Property”) from December 2014 to June 2015.
(Resolution and Recommendation, attached as Exhibit
A). Those sewer bills were based on the supposed
consumption of 1.3 million gallons of water at the
Property, even though the Property was vacant and
locked for the entire six-month period in question. (See
id.)
NEORSD’s director of operation and maintenance
held a hearing in July 2017 and found against GPI.
NEORSD’s Board of Trustees subsequently adopted the
Resolution, which states, in its entirety:
Adopting the findings of the Hearing Officer
with regard to the sewer account of GPI
Distributors, Inc.; Sewer District Case No. 17006.

App. 71
(Id.) Neither the Recommendation nor the Resolution
orders GPI to a pay money.
Under R.C. 2505.07, GPI’s notice of appeal to this
Court was due 30 days from the date of NEORSD’s
order. Although GPI believes the 30-day period began
to run on the date NEORSD mailed the Resolution to
GPI (September 28, 2017), it is possible that the period
began to run on the date of the Resolution itself
(September 21, 2017).
GPI filed a notice of appeal with NEORSD on
October 12, 2017, well before the 30-day period could
possibly have run. GPI filed a copy of that notice with
this Court on that same date. GPI’s appeal is on
questions of law and fact. In certain circumstances, an
appeal on questions of law and fact must be superseded
by a bond that is “filed at the time the notice of appeal
is required to be filed.” R.C. 2505.06.
As explained below, GPI does not believe it is
required to post a supersedeas bond. But if it is, it must
do so by the end of the 30-day time to appeal —
potentially as early as October 21, 2017. See Bell v.
Richmond Heights Equalization Bd., 8th Dist.
Cuyahoga No. 66404, 1994 WL 652837, *4 (Nov. 17,
1994). Thus, GPI requires an expedited ruling on this
motion by October 19, 2017, in order ensure that it does
not compromise its right of appeal.1

1

GPI believes the Bell case is wrongly decided. It makes absolutely
no sense for an appellant in an administrative appeal to have to
obtain approval for and post a supersedeas bond within the same
30-day period that R.C. 2505.07 provides for it to appeal. As a
practical matter, the Court cannot set or approve a bond until it

App. 72
LAW AND ARGUMENT
I. THE COURT SHOULD HOLD THAT GPI IS
NOT REQUIRED TO POST A SUPERSEDEAS
BOND.
The Court should hold that GPI is not required to
post a supersedeas bond at all for two independent
reasons: (A) this appeal falls within the bond exception
codified at R.C. 2505.12(B); and (B) NEORSD already
has a lien on the Property and therefore needs no
further protection.
A. This Appeal Involves No Order for
Payment of Money, so R.C. 2505.12(B)
Excuses GPI of any Bond Requirement.
R.C. 2505.12(B) provides that an appellant is not
required to post a supersedeas bond in connection with
“[a]n administrative-related appeal of a final order that
is not for the payment of money.” The Eighth District
Court of Appeals has held that “a supersedeas bond
under R.C. 2505.06 ‘relates to a judgment rendered by
a trial court for money damages.’” Wenneman v.

first acquires jurisdiction, so the timing set forth in Bell has an
Alice-in-Wonderland quality; it would necessarily require an
appellant to file the appeal well in advance of the 30-day deadline
(as GPI has done here) in order to obtain the necessary Court
approval of the bond. Thus, if the Court does not rule on this
motion in time to permit GPI to post any necessary bond by the
end of the 30-day deadline, it reserves its right to challenge on
further appeal any dismissal of this appeal as a consequence of
failing to meet the statutory bond requirement, including on the
basis that such a result would violate GPI’s due-process/duecourse-of-law rights under the U.S. and Ohio Constitutions.

App. 73
Cleveland Bd. of Zoning Appeals, 8th Dist. Cuyahoga
No. 62390, 1992 WL 25311, *2 (Feb. 13, 1992), quoting
Mahoney v. Berea, 33 Ohio App.3d 94, 96, 514 N.E.2d
889 (8th Dist.1986).
In this case, NEORSD assessed no damages,
and—as in Wenneman — there is no NEORSD order
requiring GPI to pay money. There is likewise no trialcourt judgment against GPI for money damages. As a
result, R.C. 2505.12(B) governs, and no supersedeas
bond is required to perfect GPI’s appeal under R.C.
2505.06.
B. This Appeal Involves No Order for
Payment of Money, so R.C. 2505.12(B)
Excuses GPI of any Bond Requirement.
Even if the Resolution required the payment of
money, NEORSD’s interests are adequately protected
by the lien it placed on GPI’s property. NEORSD
certified its assessment of delinquent sewer charges to
the Cuyahoga County Fiscal Officer. Under R.C.
6119.06(W)(1) this certified assessment “constitutes a
lien upon the property.” (See Exhibit B.)
R.C. 2505.09 does not set a specific bond amount
required to perfect notice of an administrative-related
appeal but states that the bond should have “sufficient
sureties.” In the case of an administrative-related
appeal where a stay of judgment is not the purpose of
the bond, an appeal bond serves its purpose ‘“if the
[appellee] had an interest at stake that could be lost or
squandered by the appellant during [the] appeal.”’ Bell,
1994 WL 652837, at *4, citing Mahoney 33 Ohio App.3d
at 96. And courts have held that the “sufficient

App. 74
sureties” language of R.C. 2505.09 “can reasonably be
construed to mean no bond at all, if the trial court felt
that none was necessary.” Irvine v. Akron Beacon
Journal, 147 Ohio App.3d 428, 2002-Ohio-2204, 770
N.E.2d 1105, ¶ 108 (9th Dist.) (“An ‘adequate
supersedeas bond’ could reasonably be construed to
mean no bond at all, if the trial court felt that none was
necessary * * *.”).
In this case, no bond is necessary because NEORSD
has already secured the only interest that is at stake by
obtaining a lien on the Property. The Property is
valued at $16,100 (see Exhibit C), in excess of the
challenged sewer bills, which amount to $12,047.76.
(See Exhibit A.) Even accounting for the accrual of
statutory interest, the lien suffices to secure the
potential interest that NEORSD has at stake related to
this proceeding.2
II. IN THE ALTERNATIVE, THE COURT
SHOULD HOLD THAT A NOMINAL CASH
DEPOSIT IS ADEQUATE SECURITY.
If the Court determines that some amount of
security is required, it should order a nominal amount
that GPI can reasonably afford, such as $50.00.

2

Interest rates are set forth in R.C. 1343.03(A) and R.C. 5703.47.
For the years in question, the interest rates have been three
percent, or $361.43 per year, except for 2017, when they went up
to four percent, or $481.91 per year. See http://www.tax.ohio.gov/
ohio_individual/ individual/interest_rates.aspx. The property value
is sufficiently in excess of the disputed sewer bills and several
years of continued interest accrual to justify a finding that no
supersedeas bond is necessary.

App. 75
R.C. 2505.11 states that “[i]n any appeal, in lieu of
filing a supersedeas bond, an appellant may deposit an
amount of money equal to that specified for the bond”
with the clerk of courts. Because the interest at stake
in the suit has already been secured with a lien, as
discussed above, a bond is not necessary to secure
NEORSD’s interests during the pendency of the appeal.
See Bell, 1994 WL 652837, at *4.
The Court has discretion to set a bond for an
amount that is less than the total amount of the fees
assessed against GPI. In Bell, for example, this Court
allowed the appellants to post a $50 bond to satisfy the
supersedeas-bond requirement even though the agency
had assessed thousands of dollars of fines against
them. Bell, 1994 WL 652837, at *4; see also Irvine,
2002-Ohio-2204, at ¶ 108. It is well within this Court’s
discretion to permit GPI’s request to pay a nominal
cash deposit with the Clerk in lieu of a bond. See Sergi
v. Sergi, 9th Dist. Summit No. 17550, 1996 WL 233492,
*3 (May 8, 1996).
CONCLUSION
For these reasons, GPI requests an expedited order
excusing it from posting a supersedeas bond or, in the
alternative, setting a nominal cash-deposit amount in
lieu of a supersedeas bond.
Respectfully submitted,
/s/ Deborah A. Coleman
Deborah A. Coleman (0017908)
Attorney at Law
COLEMAN LAW LLC
16781 Chagrin Blvd. #289

App. 76
Cleveland, OH 44120
Telephone: (216) 991-4510
Facsimile: (877) 298-8449
Email: dac@dacolemanlaw.com
/s/James Bedell
JAMES BEDELL
Legal Intern
/s/Brittany Chojnowski
BRITTANY CHOJNOWSKI
Legal Intern
/s/Robert Daniell
ROBERT DANIELL
Legal Intern
/s/Stephen Darnell
STEPHEN DARNELL
Legal Intern
/s/Mariah Dick
MARIAH DICK
Legal Intern
/s/Jonathan Engelke
JONATHAN ENGELKE
Legal Intern
/s/Rachel Hazelet
RACHEL HAZELET
Legal Intern
/s/Joseph Hemphill
JOSEPH HEMPHILL
Legal Intern

App. 77
/s/Julie Kuhn
JULIE KUHN
Legal Intern
/s/James Manly
jAMES MANLY
Legal Intern
/s/Daniel Wolfe
DANIEL WOLFE
Legal Intern
/s/Yanhuan Yang
YANHUAN YANG
Legal Intern
/s/ Andrew Pollis
ANDREW S. POLLIS (0046392)
Attorney at Law
THE MILTON A. KRAMER LAW
CLINIC CENTER
C ASE W ESTERN R ESERVE
UNIVERSITY SCHOOL OF LAW
11075 East Boulevard
Cleveland, Ohio 44106
Telephone: (216) 368-2766
Facsimile: (216) 368-5137
Email: andrew.pollis@case.edu
Attorneys and Legal Interns for
Plaintiff GPI Distributors
DATED: October 12, 2017
Electronically Filed 10/12/2017 18:49 / MOTION / CV
17 887300 / Confirmation Nbr. 1196904 / BATCH

App. 78
***
[Proof of Service Omitted in the
Printing of this Appendix]

App. 79

APPENDIX K
IN THE SUPREME COURT OF OHIO
CASE NO. 2019-0352
[Filed March 11, 2019]
________________________________
GPI DISTRIBUTORS, INC.,
)
)
Appellant,
)
)
v.
)
)
NORTHEAST OHIO REGIONAL )
SEWER DISTRICT,
)
)
Appellee.
)
________________________________ )
APPEAL FROM THE COURT OF APPEALS
EIGHTH APPELLATE DISTRICT
CUYAHOGA COUNTY, OHIO
CASE NO. CA-18-106806
MEMORANDUM IN SUPPORT OF
JURISDICTION OF APPELLANT
GPI DISTRIBUTORS, INC.
Andrew S. Pollis (0046392)
(Counsel of Record)
MILTON A. KRAMER LAW CLINIC

App. 80
CASE WESTERN RESERVE
UNIVERSITY SCHOOL OF LAW
11075 East Boulevard
Cleveland, Ohio 44106
Tel.: (216) 368-2766
Fax: (216) 368-5137
Email: andrew.pollis@case.edu
Deborah A. Coleman (0017908)
COLEMAN LAW LLC
16781 Chagrin Blvd. #289
Cleveland, OH 44120
Telephone: (216) 991-4510
Email: dac@dacolemanlaw.com
Attorneys for Appellant GPI Distributors, Inc.

App. 81
TABLE OF CONTENTS
I.

WHY THIS CASE RAISES BOTH A
SUBSTANTIAL CONSTITUTIONAL
QUESTION AND AN ISSUE OF PUBLIC
OR GREAT GENERAL INTEREST . . . . . . 1
A. Introduction . . . . . . . . . . . . . . . . . . . . . . 1
B. GPI’s Many Thwarted Efforts to
Challenge the Improper Sewer Bill
and Tax Lien . . . . . . . . . . . . . . . . . . . . . . 2
C. The Two Constitutional Issues this
Court Should Hear . . . . . . . . . . . . . . . . . 6
D. The Public and Great General
Interest at Stake . . . . . . . . . . . . . . . . . . . 8

II.

STATEMENT OF THE CASE AND
FACTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

III.

ARGUMENT IN SUPPORT OF
PROPOSITIONS OF LAW. . . . . . . . . . . . . 13
PROPOSITION OF LAW NO. 1: The
constitutional-avoidance doctrine does not
require a party challenging the
constitutionality of a statute to have
complied with the statute as a predicate to
judicial review . . . . . . . . . . . . . . . . . . . . . . . . 13
PROPOSITION OF LAW NO. 2: The
constitutional-avoidance doctrine does not
alter well-established rules for preserving
error for appellate review . . . . . . . . . . . . . . . 14

IV.

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . 13

App. 82
APPENDICES
Appendix A: Eighth District Opinion (Dec. 6, 2018)
Appendix B: Eighth District Order Denying Application
for Reconsideration (Jan. 24, 2019)
Appendix C: Trial Court Judgment Entry (Jan. 12,
2018)

App. 83
I. WHY THIS CASE RAISES BOTH A
SUBSTANTIAL CONSTITUTIONAL
QUESTION AND AN ISSUE OF PUBLIC OR
GREAT GENERAL INTEREST
A. Introduction
The Court should accept this appeal to clarify the
limits of the doctrine of constitutional avoidance. That
doctrine favors resolution on non-constitutional bases
over constitutional ones. But it does not require a party
to comply with an unconstitutional statute as a
predicate to challenging the constitutionality of that
statute. Nor does it justify heightening well-established
principles that govern preservation of error for appeal.
In this case, Appellant GPI Distributors, Inc.
(“GPI”) brought an administrative appeal to the Court
of Common Pleas of Cuyahoga County to challenge an
exorbitant $12,047.76 sewer bill and a corresponding
non-consensual lien that Appellee Northeast Ohio
Regional Sewer District (the “Sewer District”) caused
the County Fiscal Officer to place on GPI’s real
property. But R.C. 2505.06 posed an impermissible
barrier to that judicial review. That statute provides, in
pertinent part, that “no administrative-related appeal
shall be effective as an appeal upon questions of law
and fact until the final order appealed is superseded by
a bond.” Most supersedeas bonds are designed to stay
execution of a judgment pending appeal — but not this
one. Under R.C. 2505.06, a bond is the condition
precedent to any judicial review.
To remedy the injustice, GPI raised timely
challenges to the bond requirement on both due-process

App. 84
and equal-protection grounds, in both the trial and
appellate courts. Neither court addressed those
challenges on their merits. Instead, the lower courts
decided the case based on GPI’s failure to post the
statutory bond. The appellate court also held that GPI
had not raised its challenges timely in the trial court,
even though GPI had briefed those challenges fully in
its unsuccessful opposition to dismissal of its
administrative appeal. The appellate court
characterized its holding as in keeping with the
doctrine of constitutional avoidance. But GPI is aware
of no case law, in Ohio or elsewhere, that so broadly
and illogically construes that doctrine.
This Court should accept jurisdiction not to resolve
the underlying constitutional challenges, but
instead to clarify the scope of the constitutionalavoidance doctrine — that is, to clarify the appellate
court’s obligation to address GPI’s constitutional
arguments on their merits. The Eighth District’s
misapplication of the constitutional-avoidance doctrine
exacerbated the already-existing due-process problems
that plague this case. It also violated the First
Amendment guarantee that litigants like GPI have
“the right of access to the courts,” which “is an aspect
of the First Amendment right to petition the
Government for redress of grievances.” See Bill
Johnson’s Restaurants, Inc. v. N.L.R.B., 461 U.S. 731,
741, 103 S.Ct. 2161, 76 L.Ed.2d 277 (1983); see also
Greer-Burger v. Temesi, 116 Ohio St.3d 324, 2007-Ohio6442, 879 N.E.2d 174 ¶ 11 (acknowledging “the
paramount importance placed on the ability to access
the courts for redress of injuries”).

App. 85
B. GPI’s Many Thwarted Efforts to Challenge
the Improper Sewer Bill and Tax Lien
GPI’s struggle for justice began when it was hit with
a $12,047.76 sewer bill for a six-month period when its
real property was vacant and used no sewer services.
GPI’s experience with its sewer bill was unfortunately
not unique. See, e.g., Ron Regan, Scripps TV Station
Group, Cleveland Water Department Cover-Up Fails to
Disclose Serious Billing Errors (Feb. 22, 2017),
https://bit.ly/2HlefNh (accessed Mar. 11, 2019).
Because GPI did not pay the exorbitant and
unexplained bill, the Sewer District certified the
alleged debt to the Cuyahoga County Fiscal Officer
under R.C. 6119.06(W)(1).1 The County Fiscal Officer
then placed a tax lien on GPI’s property for the full
amount without suing to collect on the bill or having to
establish its accuracy in any forum. As a result, GPI
has suffered a $12,047.76 property deprivation, within
the meaning of the Ohio and United States

1

R.C. 6119.06(W)(1) provides that the Sewer District may certify
an allegedly overdue sewer bill to the county auditor, at which
point the alleged amount due “shall be placed by the auditor upon
the real property tax list and duplicate, and shall be collected in
the same manner as other taxes.”

App. 86
Constitutions,2 that has so far evaded any judicial
oversight or scrutiny.
GPI requested from the Sewer District an
administrative hearing, which was the only mechanism
available to challenge the $12,047.76 sewer bill. But
that hearing, run by an in-house Sewer District
hearing examiner with no judicial experience, deprived
GPI of the resources — including discovery and
subpoena power — that a court proceeding would have
permitted. Unsurprisingly, the Sewer District
concluded that its bill was correct and took no steps to
withdraw the lien, ruling that GPI failed to
substantiate any inaccuracy.
GPI appealed the Sewer District’s administrative
decision to the Cuyahoga County Court of Common
Pleas. But its pursuit of justice was again stymied. The
governing statute, R.C. 2505.06, required GPI to post
a supersedeas bond in the full amount of the disputed
bill — $12,047.76 — just to access a meaningful judicial
proceeding in front of a qualified and neutral judicial
officer. GPI asked to be excused from the bond
requirement; the trial court denied that motion.
Because GPI did not post a bond, the Sewer District
moved to dismiss the administrative appeal. In
2

The Fourteenth Amendment to the U.S. Constitution, Section 1,
provides in pertinent part: “No State shall * * * deprive any person
of life, liberty, or property, without due process of law * * *.” And
this Court has held that “the ‘due course of law’ provision of
[Section 16, Article I of] the Ohio Constitution is virtually the same
as the ‘due process’ clause of the Fourteenth Amendment to the
United States Constitution.” In re Hua, 62 Ohio St.2d 227, 230,
405 N.E.2d 255 (1980).

App. 87
opposing the Sewer District’s motion, GPI challenged
the bond requirement of R.C. 2505.06 on due-process
and equal-protection grounds. The Government — with
no due process — had already taken GPI’s property
in the form of a lien that was itself premised on
disputed sewer bills. To add the bond requirement to
this stack of injustices violates equal protection and
due process, at least where (as here) the complainant
has demonstrated a lack of financial ability to comply.
GPI also demonstrated that the bond requirement
improperly discriminated against administrative
appellants regardless of financial status; unlike every
other litigant, those appellants must post a bond in
the full amount of a disputed debt simply to receive
appellate review.3 The contrast is all the more striking
because most other appellants, whose filing fees are
much smaller, have already had their day in a trial
court.
GPI’s arguments were grounded in well-established
principles of federal constitutional law, including
Lindsey v. Normet, 405 U.S. 56, 92 S.Ct. 862, 31
L.Ed.2d 36 (1972) (striking down Oregon bond
requirement to appeal in forcible-entry-and-detainer
action), and Lecates v. Justice of Peace Court No. 4 of
State of Del., 637 F.2d 898 (3d Cir.1980) (striking down
statutory surety-bond requirement for indigent party
requesting jury trial). The trial court nevertheless

3

Litigants in all other circumstances need only pay relatively
small filing fees, such as the $100 fee this Court charges to
institute a notice of appeal. S.Ct.Prac.R. 3.04. And low-income
litigants may seek relief even from those lower fees if they
establish the inability to pay them. E.g., S.Ct.Prac.R. 3.06.

App. 88
granted the Sewer District’s motion to dismiss, relying
solely on the text of the statute and the “strong
presumption” that all statutes are constitutional. (See
Appendix C.) It did not address the substance of GPI’s
constitutionality arguments or discuss GPI’s cited
authorities.
The Eighth District affirmed. See GPI Distribs., Inc.
v. Northeast Ohio Regional Sewer Dist., 8th Dist.
Cuyahoga No. 106806, 2018-Ohio-4871 (Appendix A).
The Eighth District invoked the “constitutional
avoidance” doctrine and refused to address GPI’s
constitutional arguments. Id. at ¶ 34. It accepted the
trial court’s circular reasoning that GPI’s challenge
failed because GPI had not posted the statutorily
required bond, essentially holding that GPI was first
required to comply with the statute before pursuing a
constitutional challenge to it. Id. at ¶ 35. The Eighth
District also held that GPI had raised its constitutional
arguments in the trial court too late, even though GPI
had raised them in a timely response to the Sewer
District’s motion to dismiss. Id.
In sum, this case involves due-process violation
stacked upon due-process violation:
• First, GPI receives a $12,047.76 sewer bill that
seems facially inaccurate.
• Second, the Sewer District secures a nonconsensual lien on GPI’s property in the full
amount of the exorbitant bill.
• Third, the Sewer District upholds the propriety
of the bill after a hearing that deprived GPI of
adequate process.

App. 89
• Fourth, the trial court dismisses GPI’s
administrative appeal because GPI did not post
a $12,047.76 supersedeas bond, without
addressing GPI’s timely raised constitutional
challenges to the bond requirement of R.C.
2505.06.
• Fifth, the appellate court invokes the
constitutional-avoidance doctrine as a basis for
affirming the trial court’s dismissal.
It is only the last of these injustices that GPI asks
this Court now to remedy — not the exorbitant sewer
bill, the lien statute, or the deficient administrative
hearing. The Eighth District’s application of the
constitutional-avoidance doctrine is itself both a dueprocess violation and a violation of the First
Amendment’s petitions clause. If due process and the
right to petition have any meaning at all, they surely
require the judicial system to address due-process and
equal-protection challenges when, as here, a party
raises them timely.
C. The Two Constitutional Issues this Court
Should Hear
The Court should accept this case to clarify that the
constitutional-avoidance doctrine is not a discretionary
one that an appellate court may invoke regardless of
the circumstances. The Court should reject both
justifications the Eighth District offered for refusing to
address squarely GPI’s constitutional challenges to
R.C. 2505.06.
First, requiring litigants to comply with
unconstitutional statutory provisions as a predicate

App. 90
to challenging constitutionality is itself a violation of
due process and the petitions clause and grossly
distorts the constitutional-avoidance doctrine. It places
the litigant in an impossible dilemma and thwarts the
foundational principal of our judicial system that “the
constitution controls any legislative act repugnant to
it.” Marbury v. Madison, 5 U.S. (1 Cranch) 137, 177
(1803). Forcing a litigant to pay an alleged debt as a
condition of challenging that debt is bad enough. But
forcing that same litigant to pay the debt as a
condition of challenging the statute that requires
the prepayment of that debt undercuts the
“ ‘fundamental requisite of due process’ ” — that
litigants be afforded a “ ‘meaningful’ ” opportunity to be
heard. See Goldberg v. Kelly, 397 U.S. 254, 268, 90
S.Ct. 1011, 25 L.Ed.2d 287 (1970), quoting Grannis v.
Ordean, 234 U.S. 385, 394, 34 S.Ct. 779, 58 L.Ed. 1363
(1914), and Armstrong v. Manzo, 380 U.S. 545, 552, 85
S.Ct. 1187, 14 L.Ed.2d 62 (1965); see also Ohio Assn. of
Pub. School Emps., AFSCME, AFL-CIO v. Lakewood
City School Dist. Bd. of Edn., 68 Ohio St.3d 175, 176,
624 N.E.2d 1043 (1994).
Second, the Court should clarify that the
constitutional-avoidance doctrine does not create
greater burdens for litigants that wish to preserve
issues for appeal. A constitutional challenge to a
statute is preserved for appeal if raised in opposition to
a motion to dismiss premised on that statute. The
Eighth District’s contrary holding finds no support in
Ohio or federal law. GPI raised its challenges in the
trial court at the exact moment when the
constitutionality of R.C. 2505.06 mattered — when the
Sewer District invoked that statute in moving to

App. 91
dismiss the administrative appeal in the trial court.
Until the Sewer District filed that motion, GPI had no
basis for challenging the statute; any challenge would
have been a preemptive and improper request for the
trial court to issue an advisory decision. In short, the
challenges were not ripe until the Sewer District’s
motion rendered them so. GPI timely raised its
constitutional claims.
D. The Public and Great General Interest at
Stake
Beyond the constitutional infirmities, this case also
presents issues of public and great general interest. At
some point, a party victimized by the billing
improprieties that have long plagued water and sewer
customers in Cleveland must have a meaningful way to
get justice. If left standing, the Eighth District’s
decision will preclude customers with exorbitant bills
from accessing the judicial system, no matter how
wrong the bills or resulting liens are. What if the bill
were for $100,000? What if it were for $1,000,000?
Surely aggrieved citizens have the right to at least one
level of judicial process to address these billing
improprieties without first having to pay the full
amount allegedly owed. But the point here is this: if the
bond requirement of R.C. 2505.05 is truly
constitutional, the appellate court should say so
directly, rather than invoke the constitutionalavoidance doctrine to leave these important questions
unanswered.

App. 92
II. STATEMENT OF THE CASE AND FACTS
The Sewer District caused the Cuyahoga County
Fiscal Officer to place a tax lien of $12,047.76 on GPI’s
real property at 5335 Dolloff Road in Cleveland (the
“Property”).4 It did so under the authority of R.C.
6119.06(W)(1) with no adjudication, based on a
disputed bill for sewer services at the Property.
The Sewer District did not independently determine
GPI’s water consumption. Instead, it relied instead on
measurements performed by the City of Cleveland
Division of Water (the “Water Department”), which
owns the meters and performs the meter readings. The
Sewer District accepted without scrutiny the Water
Department’s report that GPI had consumed 1.3
million gallons of water in the first six months of
2015 — almost 18 times higher than the average
consumption for a family of four for that period5 —
even though the Property remained vacant during the
time in question and exhibited no leaks. The exorbitant
bill came at a time when the Water Department was
installing new water meters, and their notoriously
4

The original lien was for $12,047.76. For reasons unknown to
GPI, a search on the Cuyahoga County Fiscal Officer’s website
(https://myplace.cuyahogacounty.us) currently shows the value of
the lien in question to be slightly less, $11,879.47.
5

The average family of four consumes 400 gallons of water per
day. Ron Regan, Scripps TV Station Group, Cleveland Water
Customers Could Face Higher Bills Due to Critical Meter
Installation Error (Feb. 15, 2017), https://bit.ly/2VI1dNK (accessed
Mar. 11, 2019). That daily figure converts to about 73,000 gallons
over a six-month period, about 1/18 of the consumption for which
the Sewer District billed GPI.

App. 93
inaccurate readings were the subject of several news
reports. See, e.g., Ron Regan, Scripps TV Station
Group, Cleveland Water Customers Could Face Higher
Bills Due to Critical Meter Installation Error (Feb. 15,
2017), https://bit.ly/2VI1dNK (accessed Mar. 11, 2019).
With the Property now encumbered by a lien it had
no opportunity to dispute, GPI challenged the sewer
bill through the Sewer District’s administrative
process. The Sewer District held a self-described
“informal” hearing in July 2017. Frank Foley, the
Sewer District’s Director of Operations and
Maintenance, presided over the hearing. But Mr. Foley
is neither a judge nor a lawyer and could not act as a
neutral hearing officer in light of his fiduciary
obligations to “[e]nhance District revenue” and
strengthen the Sewer District’s financial status. See
Northeast Ohio Regional the Sewer District, Strategic
Plan, 2017 — 2019, at 10, https://bit.ly/2UtLq4N
https://bit.ly/2NVoU2u (accessed Mar. 11, 2019).
At the hearing, GPI offered the limited evidence it
could, despite the unavailability of the power to
subpoena Water Department witnesses and documents.
GPI’s owner, Gloria Strong, testified that the Property
was vacant and locked during the period covered by the
excessive bills. She also testified that there was no
evidence of leaking pipes or fixtures. GPI showed that
at the beginning of the six-month period in question,
the Water Department had installed a new electronic
meter. GPI also submitted a report from the Water
Department’s prime contractor for the electronic
meters warning that inaccurate billing could result
from improper selection, programming, or installation

App. 94
of the meters. The Sewer District, by contrast, offered
no evidence demonstrating the accuracy of the billing.
It acknowledged that it relied entirely upon the Water
Department to calculate the alleged water consumption
on which the sewer charges were based. No one from
the Water Department testified.
Other than highlighting the known problems with
the Water Department’s meter readings, GPI had no
meaningful opportunity to challenge the validity of the
consumption measurements because it could not
compel anyone from the Water Department to appear
at the hearing. The Sewer District’s Rules permit the
Sewer District to subpoena documents only “if deemed
necessary to fully present and adequately determine
any issue to be determined.” Code of Regulations of the
Northeast Ohio Regional Sewer District Section 4.4,
https://bit.ly/2F3pf05 (accessed Mar. 11, 2019). But the
Sewer District refused GPI’s request to subpoena
documents from the Water Department relating to
calculation of water consumption and the functioning
of the Property’s water meter. The Sewer District’s
unexplained refusal left GPI with no ability to present
evidence to challenge the accuracy of the Water
Department’s newly installed electronic metering
system on which the Sewer District based its sewer
bills.
Not surprisingly, (and in accordance with his
fiduciary obligations to the Sewer District), Mr. Foley
recommended that the Sewer District reject GPI’s
challenge, finding a lack of “evidence to substantiate”
it. The Sewer District’s Board of Trustees, also
unsurprisingly, adopted Mr. Foley’s findings.

App. 95
GPI timely appealed the Sewer District’s
administrative decision to the Cuyahoga County Court
of Common Pleas, challenging the Sewer District’s
ruling. The governing statute, R.C. 2505.06, required
GPI to post a supersedeas bond in the full amount of
the disputed sewer charge — $12,047.76 — as a
condition of seeking appellate review. This required
bond is the central issue that GPI challenged in the
Eighth District. Importantly, the bond was not
required to stay a judgment (the more-typical
purpose of a supersedeas bond pending appeal, cf. R.C.
2505.09); instead, the bond requirement functioned as
a filing fee without which GPI could obtain no
appellate review.
GPI moved the trial court to excuse the bond
requirement, due in part to the lien the Sewer District
had already obtained on GPI’s property. The trial court
denied that motion. GPI did not post the $12,047.76
bond because it could not afford to do so.
The Sewer District moved to dismiss the appeal. In
response, GPI challenged the application of the bond
requirement in this case as an unconstitutional
violation of GPI’s rights to due process and equal
protection. Instead of addressing these arguments on
their merits, the trial court held that “[l]egislative
enactments are to be afforded a strong presumption of
constitutionality” and granted the Sewer District’s
motion to dismiss. (See Appendix C.)
GPI appealed the dismissal to the Eighth District
Court of Appeals. That court, too, “decline[d] to address
GPI’s constitutional challenge to R.C. 2505.06.” GPI

App. 96
Distribs., 2018-Ohio-4871, at ¶ 39. It articulated two
reasons for invoking constitutional avoidance.
First, the appellate court endorsed the trial court’s
approach, which was to “avoid[] reaching GPI’s
constitutional challenge to R.C. 2505.06 * * * based on
statutoryinterpretation principles — concluding that
R.C. 2505.06 applied, requiring GPI to post a
supersedeas bond, and that GPI’s failure to do so was
dispositive of the case.” Id. at ¶ 35; see also id. at ¶ 38
(“Had GPI complied with R.C. 2505.06’s bond
requirement, GPI would have had access to the
common pleas court to challenge the Sewer District’s
administrative ruling. However, GPI failed to comply
with the procedural rules in order to perfect its
administrative appeal.”). In short, the appellate court
— like the trial court — took the circular position that
GPI could not challenge the constitutionality of R.C.
2505.06 because it had not complied with the statute’s
bond requirement.
Second, the appellate court would not address the
constitutional issues because “GPI [had] raised the
issue for the first time in opposing the Sewer District’s
motion to dismiss.” GPI at ¶ 35. Apparently, the
appellate court believed that GPI should have raised
the constitutional challenges when first seeking relief
from the bond requirement and that asserting them in
response to the Sewer District’s motion to dismiss was
“belated.” Id. The appellate court so held even though
GPI raised the constitutional challenge in its timely
opposition to the Sewer District’s motion to dismiss and
even though the Sewer District responded fully to that
challenge in its reply brief in the trial court.

App. 97
III.

ARGUMENT
IN
SUPPORT
PROPOSITIONS OF LAW

OF

PROPOSITION OF LAW NO. 1: The
constitutional-avoidance doctrine does not
require a party challenging the constitutionality
of a statute to have complied with the statute as
a predicate to judicial review.
The Eighth District committed a gross error of
constitutional law by refusing to address GPI’s
constitutional challenges. Instead, the appellate court
endorsed the trial court’s circular approach, which was
to “avoid[] reaching GPI’s constitutional challenge”
because GPI had not complied with the statute it
sought to challenge. GPI at ¶ 35. But the law does not
permit avoidance of a constitutional challenge on that
basis. If, as here, the statute works an unconstitutional
result on a party challenging it, the language of that
statute cannot possibly save it. If that circular
argument were the law, a court could never find a
statute unconstitutional.
But that is not the law. To the contrary, federal
courts have found unconstitutional similar filing-fee
requirements even when, as here, the party challenging
them had not first complied with them. In Lindsey, 405
U.S. 56, 92 S.Ct. 862, 31 L.Ed.2d 36, for example, the
Supreme Court struck Oregon’s requirement that
tenants post a double bond as a condition of appeal in
a forcible-entry-and-detainer action. Id. at 74-76.
Similarly, in Lecates, 637 F.2d 898, the Third Circuit
struck a statutory surety-bond requirement for an
indigent party requesting a jury trial even though the
indigent party had not complied with the statute.

App. 98
It is simply axiomatic that an unconstitutional
statute cannot escape review merely because the party
challenging it did not first comply with it. The trial
court erroneously held otherwise, and the Eighth
District endorsed that error.
PROPOSITION OF LAW NO. 2: The
constitutional-avoidance doctrine does not alter
well-established rules for preserving error for
appellate review.
The Eighth District also erred in refusing to hear
GPI’s constitutionality challenges because GPI waited
to raise them until after the Sewer District moved to
dismiss the administrative appeal. See GPI at ¶ 8, 31,
35. The Eighth District essentially held that GPI had
forfeited the issue by not raising it sooner in the trial
court.
But GPI was under no obligation to present its
challenge to the bond requirement any sooner than it
did, which was in response to the Sewer District’s
motion to dismiss. There is no basis on this record for
finding forfeiture. Indeed, this Court has considered
the merits of constitutional challenges in far-lessobvious circumstances of preservation. See In re M.D.,
38 Ohio St.3d 149, 151, 527 N.E.2d 286 (1988) (issue
preserved only “in general terms”). The Eighth District
itself has previously held that an issue is preserved if
raised “by way of objection raised in a brief in
opposition timely filed.” Novosel v. Gusto, Inc., 8th Dist.
Cuyahoga No. 73575, 1998 WL 842135, *1 (Dec. 3,
1998).

App. 99
The Eighth District premised its “belated” finding
on the fact that GPI initially sought relief from the
bond requirement without raising constitutional
challenges. Ironically, GPI’s invocation of nonconstitutional reasons for excusing the bond
requirement is precisely what the Eighth District’s
constitutional-avoidance holding would presumably
endorse. Only when pushed by the Sewer District’s
motion to dismiss was the constitutional challenge ripe
or appropriate. The Sewer District had notice and a full
opportunity to respond to GPI’s constitutional
challenges and did so in a subsequent reply brief. The
constitutional-avoidance doctrine has no application on
these facts.
Finally, the Eighth District suggested that GPI’s
assertion of certain constitutional challenges to the
sewer bill in a separately filed declaratory-judgment
action justified its refusal to address the different
constitutional issues raised here. But GPI’s
declaratory-judgment action challenges the underlying
sewer bill and lien, not the statutory bond requirement.
What is more, that declaratory-judgment action is now
at risk of being dismissed now that GPI has sought
unsuccessfully to pursue its administrative remedies.
To the extent the Eighth District conflated those issues
in its opinion, see GPI at ¶ 16, that conflation was
erroneous.6 There was simply no justification for

6

The Eighth District also incorrectly suggested that GPI could
have followed a procedure authorized by R.C. 2505.11 in lieu of
posting a bond and that its failure to do so was an additional basis
for not addressing the merits of GPI’s constitutional challenges.
See GPI at ¶ 37. R.C. 2505.11 provides two potential bases for

App. 100
refusing to hear GPI’s challenge to the constitutionality
of R.C. 2505.06.
IV. CONCLUSION
GPI requests that this Court accept jurisdiction over
this case to review the merits of the two issues
presented above.
Respectfully submitted,
/s/Andrew S. Pollis
ANDREW S. POLLIS (0046392)
(Counsel of Record)
THE MILTON A. KRAMER LAW
CLINIC CENTER
CASE WESTERN RESERVE
UNIVERSITY
SCHOOL OF LAW
11075 East Boulevard
Cleveland, Ohio 44106
Telephone: (216) 368-2766
Facsimile: (216) 368-5137
Email: andrew.pollis@case.edu

avoiding a supersedeas bond: “conveyance of property” or a
“deposit of money equal to that specified for the bond.” However,
the Sewer District already had a lien under R.C. 6119.06 on the
GPI property at issue, and the trial court expressly rejected
GPI’s argument that the lien (the functional equivalent of a
conveyance) was adequate. Having to convey some other property
or cash in the full amount of the disputed sewer bill simply to enter
the courthouse door would violate the Constitution’s petitions, dueprocess, and equal-protection provisions even in the absence of a
lien.

App. 101
/s/ Deborah A. Coleman
DEBORAH A. COLEMAN (0017908)
COLEMAN LAW LLC
16781 Chagrin Blvd. #289
Cleveland, OH 44120
Telephone: (216) 991-4510
Facsimile: (877) 298-8449
Email: dac@dacolemanlaw.com
Attorneys for Appellant
Distributors, Inc.
DATED: March 11, 2019
***
[Certificate of Service Omitted in the
Printing of this Appendix]

GPI

